<html>
<title> - THE FEDERAL GOVERNMENT'S HUMAN RESOURCE MANAGEMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
           THE FEDERAL GOVERNMENT'S HUMAN RESOURCE MANAGEMENT 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2009

                               __________

                            Serial No. 111-5

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-731 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 






              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERRY E. CONNOLLY, Virginia          PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   BRIAN P. BILBRAY, California
    Columbia                         JIM JORDAN, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FLAKE, Arizona
DANNY K. DAVIS, Illinois             JEFF FORTENBERRY, Nebraska
CHRIS VAN HOLLEN, Maryland           JASON CHAFFETZ, Utah
HENRY CUELLAR, Texas                 AARON SCHOCK, Illinois
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------
------ ------
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                    STEPHEN F. LYNCH, Massachusetts
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         JOHN M. McHUGH, New York
DANNY K. DAVIS, Illinois             JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         MARK E. SOUDER, Indiana
DENNIS J. KUCINICH, Ohio, Chairman   BRIAN P. BILBRAY, California
WM. LACY CLAY, Missouri
GERRY CONNOLLY, Virginia
                     William Miles, Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2009...................................     1
Statement of:
    Berry, John, Director, U.S. Office of Personnel Management...    12
    Jones, Yvonne, Director, Strategic Issues Team, Government 
      Accountability Office; and Dr. Donald Kettl, professor of 
      political science and Robert A. Fox professor of 
      leadership, University of Pennsylvania, and nonresident 
      senior fellow, Governance Studies, the Brookings 
      Institution................................................    35
        Jones, Yvonne............................................    35
        Kettl, Donald............................................    57
    Kelley, Colleen, national president, National Treasury 
      Employees Union; Jacqueline Simon, public policy director, 
      American Federation of Government Employees; and Gregory 
      Junemann, president, International Federation of 
      Professional and Technical Engineers.......................   137
        Junemann, Gregory........................................   162
        Kelley, Colleen..........................................   137
        Simon, Jacqueline........................................   150
    Stier, Max, president and CEO, Partnership for Public 
      Service; William Bransford, general counsel, Senior 
      Executives Association; and Patricia Niehaus, president, 
      Chapter 167, Travis Air Force Base, Federal Managers 
      Association................................................    81
        Bransford, William.......................................    97
        Niehaus, Patricia........................................   107
        Stier, Max...............................................    81
Letters, statements, etc., submitted for the record by:
    Berry, John, Director, U.S. Office of Personnel Management, 
      prepared statement of......................................    16
    Bransford, William, general counsel, Senior Executives 
      Association, prepared statement of.........................    99
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, prepared statement of.......................     9
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............    29
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    72
    Gage, John, national president, American Federation of 
      Government Employees [AFL-CIO].............................   152
    Jones, Yvonne, Director, Strategic Issues Team, Government 
      Accountability Office, prepared statement of...............    38
    Junemann, Gregory, president, International Federation of 
      Professional and Technical Engineers, prepared statement of   164
    Kelley, Colleen, national president, National Treasury 
      Employees Union, prepared statement of.....................   139
    Kettl, Dr. Donald, professor of political science and Robert 
      A. Fox professor of leadership, University of Pennsylvania, 
      and nonresident senior fellow, Governance Studies, the 
      Brookings Institution, prepared statement of...............    60
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts:
        Prepared statement of....................................     6
        Prepared statement of the Human Rights Campaign..........     2
    Niehaus, Patricia, president, Chapter 167, Travis Air Force 
      Base, Federal Managers Association, prepared statement of..   109
    Stier, Max, president and CEO, Partnership for Public 
      Service, prepared statement of.............................    84


           THE FEDERAL GOVERNMENT'S HUMAN RESOURCE MANAGEMENT

                              ----------                              


                       WEDNESDAY, APRIL 22, 2009

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, Davis, Cummings, 
Kucinich, Connolly, Chaffetz, Bilbray, and Issa [ex-officio].
    Staff present: William Miles, staff director; Jill 
Crissman, professional staff member; Marcus A. Williams, clerk/
press secretary; Jill Henderson, detailee; Tyler Pride and 
Starla Loyd, interns; John Cuaderes, minority deputy staff 
director; Jennifer Safavian, minority chief counsel for 
oversight and investigations; Dan Blankenburg, minority 
director of outreach and senior advisor; Adam Fromm, minority 
chief clerk and Member liaison; Howard Denis, minority senior 
counsel; Jonathan Skladany, minority counsel; and Aulas Cooper, 
minority professional staff member.
    Mr. Lynch. Good morning. The Subcommittee on the Federal 
Workforce, Postal Service, and the District of Columbia will 
now come to order. Welcome Ranking Member Chaffetz, members of 
the subcommittee hearing, witnesses, and all those in 
attendance. Today's hearing will examine the trends and 
characteristics of the present day Federal work force as well 
as assess the Federal Government's human resource management 
capabilities. The Chair, ranking member, and subcommittee 
members will each have 5 minutes to make their opening 
statements. All Members will have 3 days to submit revisions 
and statements for the record.
    At this time, I would like to ask unanimous consent that 
the testimony from the Human Rights Campaign be submitted for 
the record. Hearing no objection, it is so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Again, I would like to welcome our ranking 
member, Jason Chaffetz, and my fellow members of the 
subcommittee as we hold our first hearing to examine the 
Federal work force issues in the 111th Congress. I would also 
like to thank today's witnesses for helping our subcommittee 
with its work.
    While the Federal Government faces an unprecedented number 
of major policy issues and challenges that must be addressed on 
behalf of the American people, it is critically important that 
we take a moment to evaluate the state of our work force and 
the 2.6 million men and women responsible for making Government 
work every day. Today's hearing is entitled, ``Public Service 
in the 21st Century: An Examination of the State of the Federal 
Workforce.'' I have called this morning's hearing to examine 
the trends and characteristics of the present day Federal work 
force as well as to assess the current status of the Federal 
Government's human resource management capabilities.
    The subcommittee will explore both the structure and the 
quality of the Government's people management skills and 
determine what future legislation might be needed to tackle any 
of the issues and gaps in coverage presented here. In many 
ways, today's hearing will lay the groundwork for considering 
the various approaches or policies needed to ensure that the 
Government is operating as an employer and is up to the task of 
meeting these pressing challenges.
    For the United States to remain a global power, high 
performing civil servants are necessary to do the business of 
Government. In turn, these employees should be rewarded for 
their talents, their skills, their hard work, and their public 
service. I believe the Federal Government must be in a position 
to respond to the changing nature of public service and to 
address those answering the call of public service. As chairman 
of the subcommittee, I am committed to making this happen.
    It is our responsibility here in Congress to ensure that 
Federal agencies are equipped with the resources necessary to 
attaining proper staffing levels, providing beneficial 
training, and rewarding their accomplished work force. I expect 
that today's witnesses will both bring us up to speed on the 
pressing needs and issues facing today's Federal employees as 
well as offer effective human resource management strategies 
for the Government to adopt based on their own experiences and 
their day to day knowledge. I look forward to an informative 
hearing this morning.
    This concludes my opening statements. I now yield to the 
ranking member, Mr. Chaffetz.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chaffetz. Thank you, Mr. Chairman. I appreciate it.
    I appreciate your calling this hearing here today. I 
appreciate the witnesses who are taking time from their busy 
schedules to be here and share this information with us. I also 
want to particularly thank the in excess of 2.6 million men and 
women across this country who care deeply about their country, 
who work hard, and who are often the unsung heros that don't 
get nearly enough recognition and credit for their hard work 
and dedication they put into their jobs serving their 
communities and making this country the greatest country on the 
face of the planet.
    I would like to apologize in part at the beginning here for 
the up and down nature of my needing to scoot next door. My 
committee assignment in Judiciary has a number of bills in 
markup. Please don't let that be a reflection of lack of 
interest. I will be able to review the record in its entirety. 
But my apologies, Mr. Chairman, for the up and down nature of 
having two meetings at the same time.
    I do have an extended statement that I would ask unanimous 
consent be submitted to the record. With that, if that is OK 
with you, then I will yield back the balance of my time.
    [The prepared statement of Hon. Jason Chaffetz follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Thank you very much.
    The Chair now recognizes the gentlewoman from the District 
of Columbia, Ms. Holmes Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I think this is a particularly important hearing to have 
now because I am confused. On the one hand, before this we have 
been having hearings on the flight of Federal workers from the 
work force. One of the things I am most interested in is 
whether or not the putrefied economy we inherited has had an 
affect on making baby boomers, the oldest of whom have begun to 
retire, want to stay on. These are very experienced workers in 
whom we have invested a great deal.
    On the other hand, I understand that there has been 
substantial turnover in the Federal work force. I don't know if 
those are the ones that got out before they looked at their 
functional equivalent of the 401(k) or not. But I do think that 
what you are doing is very, very important in preparing us for 
a period ahead. It looks like it may be a bit different from 
the hearings we have had in the past where we pulled out our 
hair because we thought that we were losing workers at such a 
rapid rate. I thank you again, Mr. Chairman, for this hearing.
    Mr. Lynch. Thank you.
    Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. Mr. Chairman, I would 
just like to say I appreciate the hearing. As a former public 
employee, I think that too often those of us on the policy side 
forget that every study in the world has proven that even 
though compensation and status are important in public 
employment, the job satisfaction of feeling like you are doing 
something productive is the No. 1 component of retention of 
public employees. We overlook that all the time because you 
can't negotiate this and you can't quantify it on a piece of 
paper. It is something that has to be an overall goal of the 
whole team.
    When people feel like they are making a difference, like 
they are actually doing something rather than just filling a 
seat during a period of time, that job satisfaction reflex is 
reflected not only in longevity but in increased productivity. 
I think that one of the biggest challenges that I would ask us 
to look at is to recognize that while it is easy for us to look 
at what the pay rates are and compare it to the private sector, 
what the ability to move up the status level in public 
employment is, that the ability of the bureaucracy to actually 
perform and provide the services the public wants is the most 
critical component not only to the taxpayer and the 
constituency but to the public employees themselves. I think 
that is one thing that we overlook.
    Again, I was a lifeguard. Let me just tell you something: I 
would have taken half the pay for the days where I made the 50 
rescues, for the days that I sat through those cold dreary 
winters when nobody else was on the beach except myself. I even 
got a premium for sitting through those cold days. Of course, 
that is cold days in San Diego. You have to remember that is 60 
degrees. But I just think that we forget about that too often 
because too often we think about just pay and status rather 
than service. Remember, people in the public employ, the 
overwhelming ones that really need to be retained, are those 
who care more about service than even their own compensation. 
So I yield back.
    Mr. Lynch. I thank the gentleman. I agree. As a current 
public employee, I agree highly. I am not a lifeguard. I am 
sort of a lifeguard but without the water.
    It is the common policy of this committee that witnesses 
are sworn in. So I would ask the witness to please rise and 
raise your right hand.
    [Witness sworn.]
    Mr. Lynch. Let the record indicate that the witness 
answered in the affirmative. The witness's entire statement is 
already included in the record.
    The green light will indicate you have 5 minutes to 
summarize your statement. I am sorry. The green light indicates 
that you have 5 minutes. The yellow light means you have 1 
minute remaining to summarize your statement and the red light 
indicates that your time has expired.
    We are gifted this morning to have as our first witness the 
new, very new, Director of the U.S. Office of Personnel 
Management, John Berry. John Berry serves as a Director of the 
U.S. Office of Personnel Management which manages the Federal 
Government's Civil Service. Prior to Mr. Berry's appointment as 
Director of OPM, he was the Director of the National Fish and 
Wildlife Foundation and the director of the Smithsonian 
Zoological Park.
    Mr. Berry previously served as Assistant Secretary for 
Policy, Management, and Budget at the Department of the 
Interior during the Clinton administration where he oversaw a 
number of programs to improve employees' work/life balance. 
Earlier he served as Legislative Director to the House Majority 
Leader, Steny Hoyer, for 10 years. As Steny's lead on Federal 
Employee issues, he helped to guide the negotiation that led to 
the 1990 Federal Employees Pay Comparability Act.
    We welcome the new Director. I think it has been 6 or 7 
days now, so we want to hear everything you have accomplished 
so far. Welcome, Director Berry.

  STATEMENT OF JOHN BERRY, DIRECTOR, U.S. OFFICE OF PERSONNEL 
                           MANAGEMENT

    Mr. Berry. Mr. Chairman, thank you so much for this 
opportunity. I am especially pleased for my inaugural hearing 
as the new Director to be with you today so that we can really 
step back--and I think this is a great time to do this, at the 
beginning of a new administration--and look at where are we 
with the Federal Civil Service.
    In day seven on the job, I have to tell you my reaction. 
After my first week on, the job has been a little bit, I feel 
that I am a member of either--I am not sure which movie I fit 
into--either Back to the Future or Groundhog Day. When I was 
working these issues back in 1985 for Mr. Hoyer, it was 
interesting. I just want to give you sort of my sense, to begin 
with if I could since my statement has been in the record, to 
give you my sense of where I think we are today.
    Back in 1985, the Employment Cost Index identified at that 
time a comparability gap between Federal employees and their 
counterparts in the private sector that averaged somewhere 
between 20 and 25 percent. There was an argument at the time as 
to what exactly it was, but it was a clear agreement that there 
was a gap.
    The bad news is that gap, essentially, that argument has 
not moved in the 25 years since I have come back to this issue. 
We are still in that same ECI index. We are still arguing that 
it is somewhere between 20 and 25 percent. But it is still a 
very significant gap.
    Now, obviously through the lens of one of the most serious 
recessions since the Great Depression, that gap might not be as 
evident today in terms of what we are looking at and seeing in 
trends. But it is something we need to always keep in the back 
of our minds as to our competitiveness and our abilities.
    On diversity, I look at every rank on every category. 
Diversity hasn't moved hardly at all since 1985 in terms of 
Federal representation across the board. Our scores would be 
laughable even at a T-ball game. It is an embarrassment.
    Union labor-management relations, I would categorize right 
now as weak to nonexistent. The concept of partnership has 
dried up and we need to be about reviving it.
    On hiring--and I think this is one that it is widely 
recognized in the public--but after my quick assessment after 
having been at OPM, like I say, this week, I would rate our 
hiring that you would best measure it in geologic time. It uses 
a language that was last used, I think, with the lost 
civilization of Atlantis. I think there is a modern concern.
    In 1883 when Teddy Roosevelt sat in this chair in the prior 
Civil Service Commission, he was up here primarily concerned 
that people got Federal employment by basically providing 
payments to Members of Congress in the House and the Senate. 
Well, today, if you want a Federal job, you are not giving that 
money to a Member of Congress or a Senator but you are giving 
it to a company that is helping you fill out the application. I 
think that is an outrage. We ought to be able to allow people 
to apply for jobs in a simple way using plain English that 
allows us to hire people who are qualified for the jobs based 
on the determination of their qualifications. The fact that it 
is so complicated is something we have to break.
    On recruitment, we have a nice tool belt but it doesn't 
have many tools in it. On internships, we have one of the worst 
conversion rates in the United States. Right now, we hire about 
50,000 interns on average a year during the summer months. We 
convert less than 1 percent of those to real employment. Now, 
the private sector converts somewhere, it ranges between 25 and 
50 percent of those interns. They use their intern program as a 
way to give a trial run to folks and bring good people on 
board. We don't do that in the Federal Government and it is a 
huge loss of opportunity.
    You all read in the paper this morning in Joe Davidson's 
column about our IT issues and the GAO report on retirement. 
That is one of many IT issues that I have been briefed on this 
week. I got to tell you, it is a big problem and it is one that 
is going to require a lot of attention.
    I am extremely concerned over what I consider to be a 
balkanized pay system. We are now in a situation where we do 
not have a majority pay system for the U.S. Government. We have 
workers sitting side by side doing the exact same job, being 
paid differently. I can't defend that to you with a straight 
face. I think it has now reached the point--we can get along 
with sort of doing experiments and demonstrations and trying 
different flexibilities--but at some point we have to come back 
and say what makes sense, what works, and design a system that 
works for the majority of workers in the Federal Government.
    Training, it is the first thing cut in a budget and it is 
the last thing restored. We have to change that. In our complex 
world, we can't deal with that.
    Our performance appraisal systems lack credibility with the 
employee, with managers, and with the public. We have to do a 
better job.
    My experience with OPM's budget is that essentially what I 
have found is that a majority of our budget is on a 
reimbursable basis. Now what that means is that I may have my 
hand on the rudder but the rudder is not responding. We are 
responding to where our customer is putting the dollar. Our 
discretionary budget is so small that it doesn't allow us to 
lead in ways that we need to.
    Now, that is a pretty bleak assessment to begin with. There 
are some bright spots and I would begin with them. I think 
there are three. The good news is those bright spots overwhelm 
any of these dark ones.
    The first is that, thank God, despite all of these 
challenges and dark forecasts which I have just explained to 
you, the outstanding men and women who serve this country today 
in the Civil Service are doing an incredible job. They are 
staying focused. They are delivering the product that the 
taxpayer expects. Hats off to them for not letting the systems 
where we have failed them, essentially, affect their work.
    Mr. Bilbray, you are dead right and I am happy to report to 
you that our morale surveys actually show that we are doing 
pretty well on that front. It is a good thing that our 
employees actually think they are doing important work. They 
think it matters to this Republic. They understand the 
importance of their work and they believe that they are 
contributing to the health of the Nation. That is actually our 
rating, our survey ratings have gone up on that.
    So it is an absolute rock solid important thing. If we 
didn't have that, we couldn't really move forward. But because 
we have that, and we have solid men and women in the Civil 
Service, I think we can fix each of these other things.
    Then the final, third bright spot I would mention to you is 
that employees at OPM I have met are solid. We have some great 
management talent. The employees I have met are skilled; they 
are professionals. I think the bottom line is if my leadership 
is up to snuff, we ought to be able to do something on these 
darker points that I have made to you.
    Mr. Chairman, I know I am going over, but with your 
indulgence----
    Mr. Lynch. With all due respect, Mr. Director, you have 
been over for a long time now.
    Mr. Berry. Oh, I am sorry.
    Mr. Lynch. However, I think perhaps in the course of our 
questioning and answering, you can hit on the other points you 
want to hit on. I just don't want to set a precedent of 
allowing you 10 minutes and then everybody has 5.
    Mr. Bilbray. Well, Mr. Chairman, seeing how he spent so 
much time complementing me, I think you should----
    Mr. Lynch. Yes. I was actually going to cut him off when he 
started doing that.
    Mr. Berry. Well, Mr. Chairman, if I could just to mention, 
I would like to comment on the game plan for what I see as the 
way forward. Hopefully in question and answer we could get some 
of that out. I don't want to leave it at all as the dark. I 
believe we have a bright path forward. What I would just like 
to lay before the committee is what my vision would be for 
addressing all of the issues that I have raised with you.
    [The prepared statement of Mr. Berry follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Thank you. What I will do is I can actually, in 
the questioning portion of this I can give you ample 
opportunity to make those points, which are indeed important. 
Let me begin the questioning with that.
    We have a situation here where the central--and we talked 
about this before, you and I--where you have a system that is 
rule bound for Federal employees, that might have served the 
needs of Federal employees some decades ago but that has hung 
on. And as a result of the unworkability of some of those 
guidelines and rules, independent agencies--not just to flaunt 
the rules but to accomplish things--actually opted out and 
created their own systems for hiring, for promoting, for 
assessing performance. This has happened everywhere.
    I don't blame the agencies because they were trying to do 
something that actually worked, that was common sense and 
productive. So I don't think that they just through ill will 
broke out of the rules. I think they did it by necessity.
    However, now we are left with a--I don't know, you call it 
Balkan but I wouldn't want to do that injustice to the people 
of the Balkans--it is really not a system at all. System 
implies some type of coherence and compatibility. This is 
really an ad hoc system that has now been created by different 
agencies to do their own thing, basically, to try to get things 
done. So we have a real hodgepodge out there of employment 
policies. So that hurts OPM because it is your job to provide 
that overall framework.
    How do we get there? How do we create a framework that 
takes the best of lessons learned that we have out there? Some 
of these agencies are doing wonderful things, innovative, in 
spite of our ham-fisted attempt at managing human resources. 
How do we take the best but knit together a system that doesn't 
result in having folks work side by side at the same desk, 
making disparately different salaries, both of them working 
hard at the same job? How do we get there?
    Mr. Berry. Mr. Chairman, I think you have hit the nail 
right on the head. I think it is time for us to really think. 
It will take the partnership of everyone on this committee and 
I think all of the people testifying here today to work 
together with us on this to essentially come up with a new 
baseline system. I think that system sort of has to have three 
key elements to it in terms of the road map forward on this.
    One is it needs to be a fair system for employees. 
Employees need to feel that the basic pay structure establishes 
meaning, that it is related to standards that are recognized, 
and that employees feel that it is fair and applied fairly 
across the board.
    The second big point I would make, Mr. Chairman, is that it 
has to have a credible assessment system. It has to be clear in 
telling people what their job is, what their critical elements 
are, holding them accountable to performing those, correcting 
them where they are weak, rewarding them where they are strong, 
and eliminating non-performers. So, I think we need to come up 
with that. That has to be a critical element of this to the 
American public.
    The third thing is training. We mentioned that. It is 
unfortunately nonexistent pretty much across the Government 
today. That has to be a key component of any major plan going 
forward because we kid ourselves. You can get away cutting 
training for 1 or 2 years but you can't do it for the long run 
as we have done in the Government.
    So, I think those three elements--if we can come up with a 
fair pay system, a credible assessment system and appraisal 
approach, and a strong training component--if we can devise a 
system that has strength on those three fronts, I think we can 
restore the integrity of a majority pay system for the country.
    Mr. Lynch. Thank you. At this point, I recognize for 
questioning Mr. Chaffetz, our ranking member.
    Mr. Chaffetz. Thank you, Mr. Chairman. Thank you for being 
here and congratulations on the new appointment. Let me ask 
you, pay for performance, does it work?
    Mr. Berry. As in any system, there are good things and 
there are bad things. I think we have found some very good 
things but there are some warning lights. I am meeting, in 
fact, later today with the Deputy Secretary of Defense to 
discuss the Defense Department's system that they have 
developed and how we can assess that.
    Mr. Chaffetz. But do you think it has room in the Federal 
Government, in the work force?
    Mr. Berry. Performance, it has to be in the Federal 
Government. It is in the GS system.
    Mr. Chaffetz. Pay for performance or just performance?
    Mr. Berry. Well, it is not widely used. But I will tell 
you, having been a manager, you can use it. Within grade steps 
can be tied annual performance appraisals.
    Mr. Chaffetz. Where do you see the challenges, then, with 
it?
    Mr. Berry. It is not strong enough. We do not have a system 
that has credibility with any of the major partners that we 
need to have: the employees, the managers, or the public.
    Mr. Chaffetz. Yes. Just to editorialize a little bit 
myself, your checkmarks here of being fair and credible and the 
training component, I think are spot on. I would concur with 
that. I would just hope that, given the short time here for me 
to ask a series of questions, that you do consider it. I do 
think it has relevancy, maybe not for every job, but certainly 
the concept, the principle, the idea that we are rewarding 
performance. I think that is sorely needed and could be 
implemented in an effective way. I am glad to hear your 
comments on that.
    I would like to go, if I could, to this Washington Post 
story that came out today because you certainly have your hands 
full. Of particular note was this idea that the OPM, it says, 
``In October, the OPM cut its losses when it killed a $290 
million, 10-year contract with Hewitt Associates,'' maybe we 
should have them here, ``which was to have developed an 
advanced retirement calculator to speed the processing of 
claims.'' Anyway, it goes on. What are we going to do about 
that?
    Mr. Berry. The good news is we didn't lose $290 million. By 
closing off the contract, essentially I think cut our losses. 
This has been a huge problem. This has been the third attempt 
OPM has made at this, of revising the retirement system. This 
started back in 1982. There have been three attempts. The total 
cost that has been invested over that period of time, over both 
Republican and Democratic administration attempts to reform 
this, is approaching $100 million. What we have to show for 
that is precious little. We have been able to with that money 
at least cobble together a patchwork quilt system that manages 
to work. But it does it in a way that does not inspire 
confidence.
    I just got briefed on this in my first week. I can tell you 
this: I am not just going to race off and continue what has 
been happening since 1982. I think we need to go back to the 
drawing board. We need to engage and involve other agencies 
that have done major systems innovations. Social security does 
this regularly. The IRS does this regularly for a lot more 
people than we are talking about. I think in many ways, my just 
personal assessment of where this went off the tracks is they 
tried to swallow the elephant.
    Mr. Chaffetz. Could you maybe pick a different animal? 
[Laughter.]
    Mr. Berry. Apologies for the metaphor.
    Mr. Chaffetz. The point is well taken; I understand.
    Mr. Berry. They were trying to solve everything and as an 
end result solved nothing.
    Mr. Chaffetz. How would you rank this in terms of your 
priorities?
    Mr. Berry. Let me tell you that the core part of it is that 
we have to do the job right. We have to figure out what 
retirees are owed correctly and we have to pay them correctly 
on time. That is job one. So what my direction is to my team 
is, let us figure out how to do job one well. That is a must-
have. It would be nice if employees could sit at their desks 
and call up their retirement system and play with options and 
think about what date they could retire. I think of that as a 
nice-to-have. We ought not be wasting money trying to do the 
nice-to-haves until we have the must-haves done.
    So my game plan here is going to be to whittle this down to 
what must be done. We right now, our systems that are providing 
these checks and making these determinations are on the verge 
of failure. They are working and they are working today 
accurately. But we need to make sure that they can continue to 
work and handle the growing boom. So, I am going to whittle 
that down to that core issue and then focus on it by bringing 
in outside expertise to advise us on a course forward.
    Mr. Chaffetz. Thank you. Thank you, Mr. Chairman.
    Mr. Lynch. The Chair now recognizes the gentlewoman from 
the District of Columbia, Ms. Holmes Norton for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. Mr. Berry, the last 
time I spoke to you, you were running the Zoo. I am trying to 
understand what it is about running the Zoo that makes you so 
qualified to run Federal employees. I will put that aside for 
the moment. I know of your long service in the Federal 
Government. I am pleased to have you, particularly given the 
demonstration of your managerial excellence you have shown 
throughout your service.
    I indicated my confusion about whether we have openings or 
not, whether people are retiring or not. I would like you to 
clear that up for me. We understand that there are still 
challenges in recruiting people to public service. We see the 
administration going all out to make public service sexy again, 
shall we say. Are people retiring at the same rates they were 
before the economic crisis or not? If there is so much 
unemployment, why are you having trouble recruiting people to 
Federal service now?
    Mr. Berry. Congresswoman Norton, I think right now I would 
have to get back to you to see if we have accurate data. I have 
not seen data that captures the current moment which would be 
right on point with your question.
    Ms. Norton. I would ask you to get us that data within 30 
days. That is critical as an early sign of whether or not there 
has been some cessation of what was people taking early 
retirement. They were getting out of Dodge and then using all 
of our investment in them to go into the private sector, even 
becoming contractors, using our experience in that way.
    Tell us about contracting out. Why would the Government be 
contracting out if you are having such trouble recruiting 
people? Is contracting out the only way to get the Federal job 
done? Do you intend to do the wholesale contracting out of the 
Government that we have seen in the last several years?
    Mr. Berry. Definitively, no is the answer to is it the only 
way to get the job done. Contracting out can be a very helpful 
tool for the Government when it is used strategically. When it 
is used sloppily and slip shoddily, I think we need to be very 
careful because it can essentially confuse the mission of the 
Government. It can blur its regulatory responsibilities. We 
need to be very careful with it.
    Right now, my sense and my understanding is that the 
Government is going to face a different issue. Rather than 
contracting out, we are going to face what we call insourcing. 
A lot of departments have been discussing with me, including 
the Department of Defense, wanting to move what they believe 
are employees that are providing on contract bases back onto 
the Federal roles.
    So our challenge is going to be how can we do that; how can 
we handle the hiring and make sure we get those people back 
onto the roles that are good and allow for fair and open 
competition consistent with the merit principles. So I think 
what you are going to see is a new trend in Government.
    To your point about the retirees, there is no question that 
with an aging society we have to be creative in figuring out 
how we are going to benefit from that skill set and that 
talent. It ought not just be on the golf course. We need to 
keep those people in Government longer. We need to figure out 
how we are going to reengage their assets. To do that fairly, 
it is a complicated thing because we have to balance that with 
still providing opportunity for growth.
    Ms. Norton. Well, one of the other things that encourages 
people to leave government is to take your pension and then 
become an employee of a contractor. Mr. Berry, I wish you would 
do some work to discover just how many Federal employees leave 
the Federal Government to go onto a contract and whether that 
is in the interest of the Federal Government.
    Finally, let me ask you about the union-management 
partnership. One of the most effective notions I remember from 
the Clinton administration was, and I believe this is the right 
name for it, union-management partnership which even some 
Federal agencies, I understand the EPA, have begun to 
reestablish. These things were wiped out. I don't know why one 
wouldn't just want to talk to unions if you believe in labor 
peace. Are you considering reestablishing the union-management 
partnership notion which would cover all agencies in the 
Federal Government?
    Mr. Berry. Yes. We are very seriously looking at that, 
Congressman Norton. In fact, that was going to be my second 
priority in terms of after overall pay reform of reviving 
partnership in an effective and active partnership program with 
labor. I will be looking forward to working with all of the 
union heads, the Office of Management and Budget, and the 
President to see if we can sculpt a positive way forward that 
creates a positive relationship between labor and management.
    Mr. Lynch. The Chair recognizes the gentleman from 
California, Mr. Bilbray, for 5 minutes.
    Mr. Bilbray. Thank you. Let me just followup on the issue 
that the Delegate brought up, the gentlewoman raising different 
issues about the way the system is structured almost 
encouraging people to retire and leave the system. I think one 
of the examples is that the current pay cap for GS-15 means 
they can earn up to a certain amount. If they stay employed, 
they are locked into a limit. But their continuing service, 
there is no such limit. Their retirement benefits continue to 
grow. So you literally create a situation where there is an 
incentive to retire, not to stay employed. So I think a lot of 
this is, we talk about the way the individuals may move to the 
private sector, why is this done? What is the logic behind it?
    Mr. Berry. Mr. Bilbray, I am going to be honest with you. I 
can't give you a good explanation as to what the logic of that 
is. I think this has to be an issue we all wrestle with 
together.
    Mr. Bilbray. Shouldn't it be sort of flipped the other way? 
Doesn't it seem like it is really stacked in the opposite 
direction? Logically, I know I hate to use that term around the 
Federal systems, but let us use that radical concept of logic. 
Why would an employer create a system like this?
    Mr. Berry. Mr. Chairman, I don't want to pretend to tell 
you. I wouldn't defend it because I don't understand exactly 
why they would do it. It certainly seems counter-intuitive. But 
I think I do need to talk to some people who understand this 
issue in detail and make sure I am not missing something.
    Mr. Bilbray. OK, so we agree that on its face, it looks 
like it is something that needs to be changed. But let us look 
into it. I think there is a justification to say justify this 
process, not based on something that went on before or some 
kind of agreement that went on before, but what is the outcome 
right now. I just hope we spend more time looking at outcomes 
rather than intentions and be willing to be brave enough to 
correct it. Mr. Chairman, I have always said, when I was in 
local government that the biggest problem with Washington isn't 
that we try new things or that we make mistakes, but that when 
we try new things and make mistakes, we are not brave enough to 
go back and correct it. So I would ask us to take a look at 
that.
    Mr. Berry, I served for 16 years on Air Resources Board 
agencies in California. Some of the most environmentally 
friendly and energetically conservative strategies that we 
could ever implement are telecommuting and flex time to reduce 
the emissions and the consumption of fuel for employees going 
back and forth and to reduce the demand of having to build new 
infrastructure to carry it. Now the Patent and Trade Office has 
demonstrated that they can work within a telecommunication 
issue. What is the status of this concept across the board when 
it comes to the Federal work force?
    Mr. Berry. You will find in me, sir, a strong proponent of 
both telecommuting and flex time. I agree with your assessment. 
These are valuable tools not only for the employees improving 
their productivity and enhancing their family work life 
situation but in also affecting our environment in a positive 
manner. So I will be very supportive of it. I think we do have 
to be careful and work with managers.
    As Ms. Norton pointed out, I ran the National Zoo. 
Unfortunately there are some positions you just can't 
telecommute. You have to feed the animals in the morning; you 
can't do that from home. So at some positions it can't work. 
But for those that it can, we really ought to exploit it. We 
need to be supportive of it. We need to make it easier. We need 
to make it more accessible throughout the Federal Government.
    Mr. Bilbray. I appreciate that. I will just tell you a 
story about one of the most deserted parts of the world, the 
central coast of Baja California. I ran into a French engineer 
on his boat who was delivering his work to Paris by the 
internet every day. That is the kind of job I am looking for 
down the line. [Laughter.]
    But I just think these are two issues that the Delegate and 
I totally agree on. I know that the problem we ran into in 
California is that organized labor did not like the concept. 
They saw it as possibly being a barrier, giving independence to 
an employee separate from the organized strategy, and making 
harder to organize because they weren't physically in one 
plant. That is not the problem here, is it?
    Mr. Berry. I would have to talk with our labor leaders 
about that. In the spirit of partnership, I think one of the 
first rules of partnership is good, fair, and open 
communication. So, I would like to pose that question with them 
and really discuss and get their input.
    My assessment is that where there is a bargaining unit, 
that would obviously be something that would be subject to the 
bargaining process. So, I think I would look forward to working 
with the nationals and their leaders to see if we can solve 
concerns they might have because the objective is a good one. 
It is an important one. We need to be about doing as much as we 
can to improve the work life and workplace for our Federal 
employees. Those are two good tools to do it.
    Mr. Bilbray. Mr. Chairman, just in closing let me say I 
find it hard to believe that is a problem in our Federal 
system. I hope it isn't. My frustration was, in California at 
the State system, that they literally said that an individual 
could not make an agreement with management to do 
telecommunicating unless it was incorporated into a formal 
union agreement, which created huge barriers. I just can't 
believe we have made that mistake in the Federal system. I hope 
that we avoid that. I think the individual still is premier 
against the bureaucracy or even organized labor, that the 
individual really needs to be allowed to do the right thing.
    Thank you very much. I appreciate it, Mr. Berry.
    Mr. Lynch. I thank the gentleman.
    Just to clarify a point, in the chairman's discussions with 
the labor unions, in this instance labor unions have actually 
been advocates. I must say, they have been advocates of 
telework and providing flexibility for workers. So it is not 
the situation that the gentleman from California feared. It is 
the opposite situation where the union representatives in this 
case are saying telework is actually something that helps the 
quality of life of the employees that they represent. They have 
not been obstructionists. They have actually been advocates of 
finding ways to make workers more productive by utilizing it 
where it is appropriate. There are some cases, as the Director 
pointed out, where it is impossible but they have been 
certainly open and supportive of the practice.
    The Chair recognizes the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. I thank the chairman.
    Let me begin by reinforcing the chairman's point. My 
experience in local government and here in the National capital 
region as the chairman of the Council of Governments was 
actually that the work force was more than cooperative. They 
saw telework as actually a benefit.
    Telework is not defined as 5 days a week out of the office, 
by the way. Telework officially is defined as at least 1 day of 
the week not at your normal place of work in a remote location. 
It can be from home or wherever.
    I think in an era where we are worried about recruitment 
and retention, not only in the private sector but in the public 
sector, telework is a tool. I also believe in the post 9/11 
world, telework is an essential part of your continuity of 
operations plan. If you don't have a vigorous telework plan in 
place, I don't know how you get to a continuity of operations 
plan.
    But I would say to you, Mr. Berry, I think based on my own 
experience--I was the chairman of Fairfax County, right across 
the river--I had a work force of 12,000 and I set a goal. The 
goal was 20 percent of our eligible work force teleworking by 
the year 2005. We exceeded that goal. The first thing we did 
was to decide, well, who is eligible. So we didn't have a zoo, 
but for example, police officers can't call in their beat.
    So they had to work. They couldn't not show up. But we 
identified the rest of the work force and then we said, ``OK, 
20 percent of that work force, what are we going to do?'' But 
it requires a leadership from the top. Managers and supervisors 
are not going to do it if they honestly at the end of the day 
believe this is lip service.
    In a region as congested as ours, not to have the Federal 
Government leading telework is almost criminal. Yet 
consistently it has been the Federal Government that has been 
the laggard in our region, behind the private sector, behind 
State and local government. So we need to systematize telework. 
It has to be in HR policy manuals. The work force needs to know 
very clearly what is expected of me if I sign up for this, how 
will I be supervised. Supervisors need to know how to evaluate 
workers. This is not rocket science. It is not terra incognito. 
We have lots of experience. But I urge you strongly to 
systematize telework.
    Mr. Chairman, I would urge Mr. Berry to come back to us 
maybe in 6 months and talk to us on this subject alone because 
I do think it is such an important tool. And I am delighted to 
hear of your support, Mr. Berry.
    Let me ask, one of the things we have talked about on this 
committee and that I hear increasingly as a source of concern, 
not only in the work force but among Federal contractors, is 
the loss of expert acquisition and procurement capability 
within the Federal Government. How are we going to address that 
very complex subject?
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Berry. At OPM, the team that was there before me did a 
pretty good job on helping with the stimulus bill, recognizing 
that was going to be a critical hire group. OPM created a 
special category deferential to the agencies so that they could 
move forward with direct hire authority in that regard. I think 
so far that looks like it has been very helpful to many of the 
agencies in moving quickly with the stimulus and recovery 
funds.
    I am actually looking at and thinking that another category 
that is in dire need and of equal importance is our HR 
professional capacity throughout the Government. In many cases, 
that has essentially been hollowed out over time. As agencies 
seek under this bill, especially agencies that are in a growing 
situation--like the IRS, like the Defense Department--that will 
be hiring significant numbers of employees, it is essential 
that they have super HR staff on board.
    So one of the things we are looking at is how OPM can play 
a significant role in making that easier as well, speeding up 
that process, putting it into plain English, and creating 
essentially a pool of applicants that would be pre-certified, 
if you will, through a regular application and wide open 
competitive process. Then the agencies would be able to hire 
directly from that pool of expertise and get the HR staff that 
they need on.
    I think there are probably other categories we are going to 
have to treat similarly. But hopefully, those can be some first 
steps. We have made some solid steps with the contracting 
position that you discussed. I think we can continue that 
progress and move it forward.
    Mr. Connolly. I think the feedback we get when you move to 
large, complex, and integrated contracts, is making sure we 
have the resident expertise in-house which is increasingly a 
challenge. Frankly, that expertise gravitating toward the 
private sector is very tempting.
    The other problem, let me ask you, though, actually has to 
do with policy and not just talent and resources. Many 
contractors will talk about the fact that they will have many, 
many, many project managers and contract managers over the life 
of the contract. That leads to a discontinuity in management, 
different expectations about scope of work, and often some 
distortions as a result in terms of the work product delivered. 
Are there things we can do to try to incentivize more 
continuity in the contract management part of the Federal 
Government?
    Mr. Berry. That is a great question, Mr. Connolly. I don't 
have anything off the top of my head to give you some specifics 
in that regard. It is certainly something I can look into. I 
think it is something we need to pay attention to. We also need 
to be careful, as we talked about with Delegate Norton, as we 
move into an era where we might be dealing with much more 
insourcing rather than outsourcing that continuity can also be 
provided in-house as well so as we move things from the private 
sector we can also provide a smooth management transition as 
well. So we are going to have to wrestle with those issues in 
both directions.
    Mr. Connolly. My final question, Mr. Chairman: Both 
Delegate Norton and I represent lots of Federal workers. Both 
of us were here in Washington before the Metro was constructed. 
Now 40 percent, I believe, of the total passengers every day on 
the very successful system are in fact Federal workers. What 
would happen if we shut down Metro tomorrow and the Federal 
work force no longer had Metro to be able to get to work?
    Mr. Berry. It would be a disaster. The road system is not 
set up to handle that amount of people. The Metro system is 
critical to the smooth Federal operation of this Government and 
its headquarters operations. I can't imagine our effective 
operation without it. It is critical.
    Mr. Connolly. So one might inferentially conclude from your 
testimony that the Federal Government has more than a passing 
interest in the success of Metro and in its financing?
    Mr. Berry. Well, I think you might want to take that 
question up with the Director of the Office of Management and 
Budget. But I personally, as a rider, user, as a local boy who 
has grown up in this area, and knowing Carmen Turner who is my 
beloved mentor, God rest her soul, who ran the Metro system at 
one point--love the Metro system. I think it is great. It is 
great for our air quality in this area. It is a great asset to 
living in the Washington, DC, area. It is critical for our 
Federal employees.
    Mr. Connolly. Thank you, Mr. Berry. Thank you, Mr. 
Chairman.
    Mr. Lynch. Absolutely. That was a leading question. 
[Laughter.]
    It is certainly a nice segue. We do have an upcoming 
hearing on the Metro in this subcommittee that Ms. Norton has 
been a major advocate for. So we will certainly address that 
issue.
    I do recognize the ranking member for the entire committee, 
Mr. Issa, who has joined us but he has declined his opportunity 
to question. Rather than doing another round of questioning, 
which I don't think is necessary, are there points that you 
would like to amplify for the committee in just general terms? 
You have been in the seat for 7 days so I don't expect you to 
have the whole thing figured out yet. That will take at least a 
month. [Laughter.]
    But if you do have some points that we haven't in our 
thorough questioning raised, we would be happy to give you 
ample time to talk about those and the way forward.
    Mr. Berry. Mr. Chairman, I appreciate the opportunity. I 
will just make three quick points for the committee. The first 
would be that I think it is important that the Office of 
Personnel Management seek to get some points on the board here. 
We are going to be trying to do that in three key area in this 
first year on the job. The first is in hiring reform. We are 
going to try to do that better.
    Now, I know that has been a rock that has sunk many a ship 
but we are going to try. We are going to be working on 
reforming security clearances and making sure that is secure 
and easy. I know those two things might not go hand in glove, 
so we are going to have to be very careful with it, but where 
there is duplication we have to weed it out and make it work 
better. Then third, I am going to try to put points on the 
board on work life and workplace for the Federal employees. I 
think it is essential. We have talked about a few of those 
items today. There are many more we can do and I am going to be 
about that.
    In terms of the bigger picture, we discussed a little bit 
about the overall of maybe building a majority pay system.
    The third and final thing I would draw to the committee's 
attention, and it is going to be my intention, is that the 
mission of OPM right now is defined as providing an effective 
work force for the Federal Government. Now, I think that is a 
relatively low bar mission. We need to obviously succeed at 
that mission.
    I think we need a bigger vision. My vision is not that we 
just provide an effective work force but that the U.S. 
Government as the largest employer has a special responsibility 
of being the model employer to the Nation. My hope is to work 
with everyone in this room and with HR professionals throughout 
the Government, throughout the private sector, throughout this 
Congress to decide what are the best practices that are out 
there today and hold ourselves accountable, put metrics on the 
board.
    We may not get it done in the first term of the Obama 
administration; we may not get it done in the second term of 
the Obama administration if the American people give that to 
us. But it is a path we can work toward, to be the model 
employer and to implement those best practices for the men and 
women of the Civil Service. That is going to be my vision, sir. 
I look forward to working with this committee to accomplish it.
    I thank you very much for your opportunity to be with you 
today.
    Mr. Issa. Mr. Chairman, I apologize but could I ask just 
one question?
    Mr. Lynch. Absolutely, absolutely. Please.
    Mr. Issa. I applaud you for your goals. One goal that this 
committee, I believe, is concerned about is the use of 
annuitants and the whole process of retirement. Will you be 
trying to or work with us on a reform that would allow for an 
efficient retention of our most skilled workers?
    Mr. Berry. I think, Mr. Issa, I wholeheartedly agree with 
you. That is an issue we have to wrestle with. It is a good 
one. I will be supportive of the principle. There are some 
cautions that we just have to be careful with. I think we need 
to recognize that on the one hand with an aging society we have 
to figure out how to recapture that talent and reuse it 
effectively.
    At the same time we don't want to foreclose promotional 
opportunities for mid-level managers. They might see that in 
solving one problem we create another and someone might feel, 
well, there is no future for me here so I will leave the 
Federal Government. So we need to be careful as we move 
forward.
    Then the other thing we have to figure out, as the 
President has said, is how to make Federal service cool again. 
How do we bring in that next generation? How do we inspire that 
next generation to come into public service?
    I think there are creative ways we can do that and 
accomplish all of those objectives together. But if we keep all 
of them in mind, I hope we can craft a solution that will work.
    Mr. Issa. Thank you. I hope when you do an analysis of the 
number of former Federal workers who are, in fact, in second 
careers as lobbyists or contractors back in the same seats they 
used to be in, that you will weigh that as a portion of the 
reform most needed.
    Mr. Berry. I think that is a great point, Mr. Issa. We 
might be able to be creative about this. Just let me throw out 
an idea for future discussion. What if, as we said, we were 
reemploying an annuitant and not offsetting their annuity for a 
term period--let us say a couple of years--as a condition of 
that reappointment they would agree to spend 30 percent of 
their time on training a mid-level manager to move up to fill 
their position when their term would expire?
    Or what if they would potentially adopt a newbie, somebody 
who is just coming in? I hear constantly that one of the 
reasons we have such a low rate of hiring interns into the 
Federal Government is because we don't really support them. We 
kind of throw them into a job. There are not many young people 
around them. There is no one there to coach them and mentor 
them.
    What if, as a condition of this, maybe you had to sign on 
and be a coach to a young person coming in to teach them the 
ropes and teach them how the Federal Government works? That may 
be a very effective knowledge transfer. If we can creatively 
design that, I believe the investment that will be required to 
accomplish it with the reemployment of the annuitants may well 
be a very good one for the taxpayer. So I look forward to 
working with you on balancing those multiple issues.
    Mr. Issa. I do, too. Thank you, Mr. Chairman.
    Mr. Lynch. I thank the gentleman. We did have one 
clarification on the part of Ms. Holmes Norton. I would 
obviously offer the same opportunity for the gentleman from 
Utah as well. Ms. Holmes Norton.
    Ms. Norton. I just wanted to clarify what you said about 
diversity. Did you say that diversity hasn't moved since 1985?
    Mr. Berry. It has been very slight improvements.
    Ms. Norton. How do you account for that?
    Mr. Berry. We need to do better. We need to figure out how 
to involve the richness of our society and reflect it in our 
work force that is fully legal and fully appropriate. We need 
that breadth of skills in our Civil Service.
    Ms. Norton. Mr. Berry, would you again get to the chairman 
of the committee the figures on race and sex by grade in the 
Federal work force today and in 1985? Would you please break 
that down since diversity doesn't mean all minorities get 
packed together. There are black people, there are Hispanics, 
there are Asians. Break it down the way the figures do if they 
are done appropriately.
    Mr. Berry. I would be very happy to, Ms. Norton. I think 
you will also be very happy to hear, the President announced 
this week that the Deputy Director that will be serving with me 
at the Office of Personnel Management--and I am very excited by 
this--is Christine Griffin, who is now the EEOC Commissioner 
for Disability. I think she is going to bring a special focus, 
attention, and skill set on this issue to us in the Department. 
I think she is going to be phenomenal if the Senate confirms 
her. I really look forward to working with her. But we will get 
you that information for the record.
    Mr. Bilbray. Would the gentlewoman yield on that item.
    Ms. Norton. I would be happy to yield to the gentleman.
    Mr. Bilbray. I would suggest that you also take a look at 
your intern program. Look at the profile there. By addressing 
the intern program, you may be able solve that. But you first 
have to look at what are the facts as they apply to the intern 
program. Does that reflect the diversity in the community? If 
it does, then you know where you can address and move this. If 
it doesn't, then you have to look at other ways. But look 
specifically at your intern program. See if that reflects the 
numbers you want and the profile you want. If so, then you know 
where to focus.
    Mr. Berry. If I could, Mr. Chairman? Mr. Bilbray, I think 
you are right. We also need to look not just at the interns but 
at mid-career training programs and other sources like that. 
They are essentially the pipeline, if you will, as you go up 
the ladder. I think we need to look at this not just for the GS 
scale. We need to look at it at SES; we need to look 
everywhere. We need to have diversity throughout the Government 
and at all of our ranks. We need to make sure we are providing 
opportunity to all of our citizens and encouraging that within 
the law, absolutely. We need to look at each of those paths--
internships, training programs, SES candidate development 
pools--and pay attention to all of them.
    Mr. Lynch. Director Berry, we want to congratulate you on 
your new appointment. We appreciate your willingness to come 
before the committee and help us with our work. We look forward 
to working with you because the task of this committee and your 
own responsibilities do overlap at so many different points. 
Thank you for your time.
    Mr. Berry. It has been an honor and a pleasure, sir. Thank 
you all.
    Mr. Lynch. I would like to welcome the second panel, if we 
may. Welcome. It is the custom of this committee that all 
witnesses are to be sworn in. Could I ask you to please rise 
and raise your right hands?
    [Witnesses sworn.]
    Mr. Lynch. Thank you. Let the record show that the 
witnesses both answered in the affirmative.
    Yvonne D. Jones is Director of the Strategic Issues Team in 
the Government Accountability Office. Yvonne Jones is the 
Director of the Strategic Initiatives Team at GAO where she 
analyzes Federal Government human capital issues and 2009 
fiscal stimulus oversight issues. At GAO, Ms. Jones also worked 
as a Director of the Financial Markets and Community Investment 
Team. Prior to joining GAO in 2003, Ms. Jones worked at the 
World Bank where she developed projects in the education sector 
in east Asian countries, assisted sub-Saharan African countries 
in reducing their commercial bank debt levels, and helped 
countries design financial and private sector restructuring 
programs in eastern and central Europe and the former Soviet 
Union.
    Dr. Donald Kettl is a professor of political science and 
the Robert A. Fox professor of leadership at the University of 
Pennsylvania. He is the incoming dean of the School of Public 
Policy at the University of Maryland. Dr. Kettl is also a 
nonresident senior fellow at Washington's Bookings Institution, 
the executive director of the Century Foundation's Project on 
Federalism and Homeland Security, and academic coordinator of 
the Government Performance Project. Dr. Kettl has consulted for 
government organizations at all levels in United States and 
abroad. He is regularly a columnist for Governing magazine, 
which is read by State and local government officials around 
the country. I would also like to congratulate Dr. Kettl on his 
recent appointment as dean to the University of Maryland School 
of Public Policy.
    Dr. Kettl's research focuses primarily on public policy and 
public management. He has authored, coauthored, or edited over 
25 books and numerous scholarly articles on public management 
and governance, including his new book--which I am about half 
way through--which is titled The Next Government of the United 
States: Why Our Institutions Fail Us and How to Fix Them. I 
haven't gotten to the how to fix them part yet. Dr. Kettl holds 
four political science degrees from Yale and has been called 
the leading government management scholar of his generation. I 
agree with that assessment. I most appreciate you joining with 
us today to share your vast experience in this field.
    Why don't I allow the witnesses first to have their opening 
statements first and then we will proceed to questioning. Ms. 
Yvonne Jones for 5 minutes.

 STATEMENTS OF YVONNE JONES, DIRECTOR, STRATEGIC ISSUES TEAM, 
    GOVERNMENT ACCOUNTABILITY OFFICE; AND DR. DONALD KETTL, 
 PROFESSOR OF POLITICAL SCIENCE AND ROBERT A. FOX PROFESSOR OF 
LEADERSHIP, UNIVERSITY OF PENNSYLVANIA, AND NONRESIDENT SENIOR 
     FELLOW, GOVERNANCE STUDIES, THE BROOKINGS INSTITUTION

                   STATEMENT OF YVONNE JONES

    Ms. Jones. Thank you. Mr. Chairman and members of the 
subcommittee, thank you for the opportunity to be here today to 
discuss the state of the Federal work force. The importance of 
a highly qualified Federal work force cannot be overstated.
    In 2001, we identified human capital management as a 
Government-wide high risk area. Progress has been made since 
then but the area remains on our high risk list because of a 
compelling need for a Government-wide framework to advance 
human capital reform. The framework is vital to avoid further 
fragmentation within Civil Service, ensure that management 
flexibility is appropriate, allow a reasonable degree of 
consistency, provide adequate safeguards, and maintain a level 
playing field among agencies competing for talent.
    My remarks today will focus on executive branch agencies' 
and the Office's of Personnel Management, OPM, progress in 
addressing strategic human capital management challenges in 
four key areas of leadership; strategic human capital planning; 
acquiring, developing, and retaining talent; and results 
oriented organizational cultures.
    Top leadership in Federal agencies must provide committed 
attention to address human capital issues. Leadership must 
embrace reform and integrate the human capital functions into 
their agencies' core responsibilities. OPM plays a key role in 
leading improvements in all areas of strategic human capital 
management in the executive branch. We have reported that OPM 
has made commendable efforts in transforming itself from less 
of a rulemaker, enforcer, and independent agent to more of a 
consultant, toolmaker, and strategic partner to Executive 
agencies.
    Congress also recognized that increased attention to 
strategic human capital management was needed. In 2002, 
Congress created the Chief Human Capital Officer position or 
CHCO in 24 agencies. The CHCO Council advises and coordinates 
the activities of member agencies, OPM, and the Office of 
Management and Budget. The CHCO Council addresses key current 
and emerging human capital issues.
    To carry out effective strategic human capital planning, 
agencies need to ensure that they have the talent and skills 
mix to address current and emerging challenges, especially as 
the Federal Government faces increased staff and executive 
retirements. An example of the Federal Government's human 
capital planning challenges is its acquisition work force. In 
prior work, we testified that the acquisition work force's 
workload and responsibilities are increasing without adequate 
attention to its size, its skills, and succession planning. A 
strategic approach had not been taken across Government or 
within agencies to create a positive image essential to 
successfully recruiting and retaining new acquisition 
professionals.
    The challenges agencies are facing with sustaining a 
capable and accountable work force contributed to GAO's 
designation of interagency contracting as a high risk area in 
2005. In our recent 2009 update, it remains a high risk area at 
three agencies: the Departments of Defense, Energy, and at 
NASA.
    Faced with a work force with talent and skill gaps, it is 
important that agencies strengthen their efforts and use 
available flexibilities from Congress and OPM to acquire, 
develop, motivate, and retain talent. In recent years, Congress 
and OPM took a series of important actions to improve Federal 
hiring and recruitment. The Congress provided agencies with 
increased authority to pay recruitment bonuses and to credit 
relevant private sector experience when determining annual 
leave amounts. It provided agencies with hiring flexibilities. 
Also, OPM has authorized Government-wide direct hiring 
authority for veterinary and medical officers, launched an 80-
day hiring model to speed up the hiring process, and reminded 
agencies that they can also hire older, experienced workers to 
fill work force needs.
    Concerning worker retention, the Federal Government is well 
positioned to retain workers. It has a variety of tangible 
benefits and flexibilities. We have previously stated that the 
executive branch agencies need to reexamine their use of 
flexibilities such as monetary recruitment and retention, 
special hiring authorities including student employment, and 
work-life programs such as alternate work schedules, childcare 
assistance, telework opportunities, and transit subsidies.
    Leading organizations find that to transform themselves, 
they must fundamentally change their culture so they are more 
results oriented, customer focused, and collaborative. Credible 
performance management systems that align individual, team, and 
unit performance with organizational results can help manage 
this process. Leading organizations also develop and maintain 
inclusive and diverse work forces at all levels of the 
organization.
    Mr. Chairman and members of the subcommittee, this 
completes my statement. I would be pleased to respond to any 
questions that you may have.
    [The prepared statement of Ms. Jones follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Thank you very much, Director Jones. I know you 
were right to the 5-minutes. Very good.
    Dr. Kettl for 5 minutes, please.

                   STATEMENT OF DONALD KETTL

    Mr. Kettl. Mr. Chairman, thank you so much. Thank you for 
the opportunity to testify before you today on what clearly is 
one of the most important issues that we as a country face as 
we try to fashion a work force that will be up to the 
challenges of managing our Government in the 21st century. To 
try to deal with those questions, I want to suggest seven basic 
things that I think we need to focus on.
    The first is a point which has already been echoed a bit 
this morning. We tend to talk about the Federal personnel 
system as if it were a system but, in fact, it is increasingly 
no such thing. It is no exaggeration to say that any agency or 
any department that has had an opportunity to either get 
flexibilities or to break completely out of the system has done 
so, which is an unfortunate commentary on the nature of the 
current set of rules and procedures that we rely on for hiring 
the people that we most need to run our Government.
    It is important to remember why it is that we created the 
Civil Service system to begin with. Back a century and a half 
ago, it was an effort to try to not only establish basic rules 
and procedures but also, and perhaps most importantly, to make 
sure the basic values that we need to try to guide the work of 
Government were put in place. Unfortunately, what is happening 
with the effort to try to break out of this system is that 
effort to define those core values is being lost.
    So one of the most important things we need to do is to 
figure out and to spend time talking about--which is why this 
hearing is so important--what it is that we want our Federal 
work force to do and what values we want to use to drive it.
    The second thing is to emphasize the point that public 
problems require human capital solutions. The Government 
Accountability Office has done terrific work on the issues of 
the importance of the Federal work force and the importance of 
expertise in managing Federal programs. GAO has identified 
about 30 high risk areas and has identified human capital 
problems as being central to 18 of them. I would disagree in 
only one modest respect. I think that, in fact, probably all 30 
out of 30 one way or another deal with human capital issues. We 
are not going to be able to solve the driving problems that 
Government has at its core without solving the people problems 
that are needed to be able to get to those solutions.
    The third thing is that, as I think everyone recognizes, we 
need to reform entry into the system for new employees. I deal 
all the time with students who come in excited about the idea 
of trying to come and work for the Federal Government and too 
often end up walking away because the barriers simply seem too 
great and too large. They go off on internships and don't find 
the experience exciting. They say they want to work for the 
Federal Government but have a hard time identifying which jobs 
they want to work for and how simply to negotiate the process.
    Too often what happens is that our best and brightest 
simply go elsewhere because getting into the Government is too 
hard. So we need, as the new Director of the Office of 
Personnel Management has recognized, to make it easier for the 
best and the brightest to get in.
    The fourth piece is to recognize that entering from the 
bottom up is not the only thing that we need to do to try to 
improve the Federal work force. We have, for example, the 
Presidential Management Fellows Program which has been 
successful in recruiting people into the Federal work force. 
But too often what we succeed in doing is investing the Federal 
Government's time, energy, and money to train people who then 
go off to the private sector. So the Federal Government 
actually becomes the trainer of first resort for highly skilled 
employees who then end up leaving Federal service.
    What we need, I think, is to consider perhaps an 
alternative superfellows program where the private sector can 
engage in the training and the Federal Government could hire 
people laterally in areas, for example, at the GS-11 to 13 
level. We need to allow people to be able to have alternative 
means of entry into the system. That plus the proposed 
Roosevelt Scholars program to create kind of a ROTC-like 
process of enabling people to enter Federal service where they 
provide a series of alternatives for getting the highly skilled 
workers into the Government that we most need.
    The fifth, as I argue in the book that you mentioned, Mr. 
Chairman, is we really need a new set of skills to manage new 
programs and new tools that we are in the process of inventing. 
The Federal Government now finds itself owner of a substantial 
number of private sector companies and has substantial leverage 
and ownership stakes in others. We need to develop the tools 
that are required. That requires not only intellectual capital 
in figuring out what that means but development of management 
skills in making that happen.
    The sixth, as everyone recognizes, is we need much stronger 
leadership development of people who are inside the Government 
itself. I am reminded of what Admiral Thad Allen said as he 
brought his workers to New Orleans and began to make a 
difference in the recovery that we needed there. He said, ``we 
give our field commanders a mission, an area of responsibility, 
and their own resources and assets, such as cutters and 
aircraft, and then we leave it up to them.'' That came out of a 
process. He could trust people with doing that because the 
Coast Guard has perhaps the Government's best training program 
for its employees and they provide a model.
    That gets to my final point, which is that Office of 
Personnel Management needs to be playing now a larger role in 
developing the human capital inside the Government, not only 
skills and the procedures but a broader set of thought about 
what it is that we need for the Government to do, what values 
we need to have in the work force, and how best to try to 
administer it.
    We are facing enormous challenges in the 21st century now 
and Government has a responsibility to its citizens to deliver. 
The only what that is going to happen is by focusing first on 
the importance of building a human capital system that will 
help solve the problems for the 21st century.
    [The prepared statement of Mr. Kettl follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Thank you very much. Thank you both very much 
for your willingness to come before the committee and help us 
with our work.
    Let me go right at that point that you raised, Dr. Kettl. 
We have a situation where Government has changed very little. 
We have a set of founding documents--the Constitution--that 
basically describe our roles. Thankfully, the genius of it was 
that it is vaguely stated and principle based so that it can 
adapt to changing circumstances.
    However, legislatively we are still doing things the way we 
did, you know, 200 years ago. We got rid of the powdered wigs 
but essentially the legislature still works with the same 
structure. Some of that is required because of representative 
Government needs, but I do feel that we have really been slow 
to adapt. You can see the changes in society, in industry, in 
business, in the technology around us. Those are changing at a 
breakneck speed. Yet we in Government struggle to keep up.
    It goes right to this point that we are discussing today. I 
mean, even when I first came here, and I came here 7 years ago, 
I never thought that part of my responsibility would be to find 
out how a collateral debt obligation works or how complex 
derivatives are actually structured. But now that the American 
taxpayer is a major purchaser of these, we have to get down to 
that level of detail. I can only sympathize with new Federal 
employees who are now being asked to either supervise the TARP 
program or the TALF program or to try to track the money in the 
Stimulus to find out where it is going. It is a tall task to 
ask anyone to get up to speed on some of these issues where we 
are at a severe disadvantage.
    But my question is, the Office of Personnel Management, 
what do you see their role in this being? As I see it, some of 
the best innovation that has occurred has occurred in some of 
these agencies that are out from under the OPM rule structure. 
In Defense Department, when Director Jones talks about 
procurement and the acquisition work force, they have some 
great stuff going on at DOD. You go on their Web site and they 
have courses there that help educate people who are trying to 
do Defense Department procurement.
    How do you see OPM getting a handle on all of this and is 
that the right model? As a threshold question, is that the 
model that we want? Or do we want this individual management as 
you described with Thad Allen and the Coast Guard where we 
create managers in the field who are making the adjustments and 
the decisions on the ground as they occur in real time? Why 
don't I give you an opportunity to answer.
    Mr. Kettl. Mr. Chairman, let me say first that this is 
exactly the right question, that only in trying to attack that 
are we going to be able to get the Government that we need and 
the taxpayers expect. In many ways, it has to be a creative 
tension between, for example, the Thad Allens of the world who 
are out there trying to devise new strategies for personnel 
systems that will work but then trying to find ways of learning 
on a broad system-wide basis to be able to apply those to the 
rest of the Government.
    We need this creative tension between the grassroots level 
efforts to try to strategize on how to learn but an effort to 
try to make it work system-wide. What we cannot afford is a 
series of pockets of high levels of performance with the rest 
of the Government lagging behind. What OPM has to do is to do 
three things.
    The first is, it needs to spend its time reminding the rest 
of us about why it is that it was created and what basic values 
that we want to have in a work force. What is it that we want 
Federal workers to look like, to act like, to do, and how we 
want them to perform.
    The second is that it needs to spend its time on a 
Government-wide basis thinking about the basic capacities that 
21st century Government requires. There are governments around 
the world, I think for example the governments of Denmark and 
New Zealand, that spend a lot of time at a system level, a high 
level, thinking about basic questions of government capacity. 
What are the skills that Government workers need?
    The third thing is then trying on a system-wide basis of 
devising the strategies to make sure that the workers who do 
the work have those skills that we need. This is going to 
require, I think, some retinkering, some fundamental rethinking 
of what it is that OPM does. I think it has to worry about 
hiring, firing, salaries, annuities. But it has to be working 
at the strategic level as well because if it doesn't, my fear 
is that it is not going to get done. If it doesn't get done, 
programs are not going to be managed as they need to.
    Mr. Lynch. Thank you very much.
    The Chair recognizes the gentleman from Utah, Mr. Chaffetz 
for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman. Thank you both for 
being here and the work that you do diving deep into these 
issues. We certainly appreciate it.
    Ms. Jones, I don't know if you are in a position to talk 
about the Retire EZ program and what is happening or not 
happening there. It certainly has been highlighted in the news 
lately. Can you give us from your viewpoint, if you have some 
knowledge about this program, as to where it is at and how dire 
the situation is? There was a quote that said, ``The agency's 
retirement modernization initiative remains at risk of 
failure.'' How dire is it?
    Ms. Jones. Actually, it was another team at GAO that did 
that work. I am familiar with the generalities of what they 
said but I am not terribly familiar with all of the details of 
it. I could provide you with further information if you wish.
    Mr. Chaffetz. OK, I appreciate it. I didn't know if you had 
personally been involved on that. There was a quote here that 
said, ``Institutionalizing effective management is critical not 
only for the success of this initiative but also for that of 
other modernization efforts within the agency.'' It alludes to 
other aspects that are maybe falling down or falling apart or 
just not coming to fruition despite heavy investment by our 
Government.
    From your vantage point, what are those other areas we 
should highlight for this committee? What is not coming about? 
What would that allude to when it says ``other modernization 
efforts within the agency?''
    Ms. Jones. We had done some work in the past in which we 
had examined OPM's relationships and its ability to 
communicate, for example, with other agencies and for them to 
provide technical assistance to other agencies when they were 
trying to improve their strategic human capital management, 
planning, and other functions.
    We had also in other reports indicated that we felt that 
OPM could improve some of its internal functioning, for 
example, making sure that it had staff that have the skills to 
provide service and advice to the other agencies that it is 
tasked with helping in terms of improving the functioning of 
all of the human capital management functions in the 
Government. Now, we have also done work which suggested that 
there have been improvements at OPM in some of these areas.
    Mr. Chaffetz. But what is your biggest concern at OPM? If 
you had to say, this is my No. 1 concern, what would it be?
    Ms. Jones. I would say that our No. 1 concern would be for 
OPM to help agencies build the infrastructures as appropriate 
and depending upon their core missions and goals to 
successfully design, implement, and sustain human capital 
reforms.
    Mr. Chaffetz. And do they have the internal staff to 
actually execute on what you just articulated?
    Ms. Jones. I would need to get you more specific 
information on that, whether in fact they have the specific 
categories of staff that they need.
    Mr. Chaffetz. Let me ask you, this is an interesting quote 
from this report that you provided. Here on page 2 it says, 
``Government-wide, about one third of Federal employees on 
board at the end of Fiscal year 2007 will become eligible to 
retire in 2012.'' From your perspective and your experience, 
what is this going to lead to? Expand that thought and that 
concern. We have just a few seconds here.
    Ms. Jones. We have concerns because knowing that so many 
staff and also members of the Senior Executive Service will be 
eligible to retire--it doesn't mean that they will retire, but 
they will be eligible to retire--we feel that it is very 
important that OPM and the executive branch agencies undertake 
the efforts that are necessary for them first to identify their 
skills and talent gaps and then to undertake the range of 
activities that they need to bring in staff at various levels, 
at the entry level and at the mid-career level as appropriate. 
It is important also to try to retain older staff that are 
experienced or hire in older, experienced staff who haven't 
previously worked in the Federal Government.
    Mr. Chaffetz. Thank you, I appreciate it. Thank you, Mr. 
Chairman.
    Mr. Lynch. Thank you.
    The Chair recognizes the gentlewoman from the District of 
Columbia, Ms. Holmes Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Ms. Jones, I appreciate the directness of your assessment 
on page 9 of the GAO report. ``In short, the Federal hiring 
process an impediment to the very customers it is designed to 
serve in that it makes it difficult for agencies and managers 
to obtain the right people with the right skills, and 
applicants can be dissuaded from public service because of the 
complex and lengthy procedures.''
    Of course, Mr. Berry testified about a series of rather 
hopeful things that have already begun including such common 
sense things as announcements to employees that are common for 
occupations such as secretary, accounting, and the like. I am 
interested in this 80-day hiring model.
    Now, I understand that is already almost 3 months. That is 
on page 10, ``launched an 80-day hiring model to help speed up 
the hiring process.'' Why does it take 3 months? Is that used 
across the Government? What is the agency doing during that 
time that takes 3 months, particularly now that so many people 
are out of work and probably looking for Government employment?
    Ms. Jones. Well, as we understand it, the 80 days is the 
period of time from when the announcement is made public to 
actually bringing the individual on board into the agency.
    Ms. Norton. And these are people who don't need security 
clearances. It is just ordinary hires, right?
    Ms. Jones. As I understand it, it is regular hires.
    Ms. Norton. So what takes so long? Is it the agency, it is 
OPM? What is it? That is a lot of time if you are waiting for a 
job and you have a number of applications out.
    Ms. Jones. As I understand from OPM's published work on 
this, what they were trying to do is estimate accurately the 
amount of time that it would take to send the announcement out, 
to receive the applications and for the whole review process. I 
am not sure that all applicants are ready instantly to move 
into their positions.
    Ms. Norton. Yes, but an 80-day hiring model must be some 
kind of template itself. Is this used now across the Government 
in all the agencies?
    Ms. Jones. I am not sure if it is used in all of the 
agencies or not.
    Ms. Norton. What I don't understand is you say an 80-day 
hiring model, and I am not sure if the hiring model was used in 
one agency like the veterinarians that had such a need for or 
whether that is Government-wide. I wish you would, to the 
extend that you are depending on that in your report, get 
information to us about what agencies we are talking about.
    Ms. Jones. Yes, we would be glad to.
    Ms. Norton. For example, Mr. Berry in his testimony talked 
about funds that they have received for the American Recovery 
and Reinvestment Act. They have developed a tool to make it 
easier for Federal agencies--I didn't get an opportunity to ask 
him about this--to document new hires that are funded by the 
Recovery and Reinvestment Act.
    Well, they have a time line on that one that is like 
nothing you have ever seen because we are trying to get people 
back to work. I wonder if, whether from your own background and 
expertise, using the hurry up procedures we have told them to 
use in the Stimulus Bill, some of that could be transferrable? 
Could we learn from that so we might speed up the hiring 
process more generally after the Reinvestment Act has done its 
work?
    Ms. Jones. Well, I am aware that with respect to hiring for 
the Stimulus Act that OPM held a kind of interagency conference 
back in March of this year. They had discussions with numerous 
agencies who are required to implement programs under the 
Stimulus Act. There was a lot of discussion, for example, about 
direct hire authorities particularly, I think, Mr. Berry 
mentioned for the acquisition work force. The direct hire 
authorities exist, for example, as you said for the 
veterinarian medical officers. OPM recently made that direct 
hire authority available because it became aware of the fact 
that we have an across the Government shortage of those hiring 
officers.
    Ms. Norton. Well, what we need to know is, if you get 
desperate enough you will hire some veterinarian. I don't have 
a sense from the GAO report whether we have a template across 
agency lines that is even an 80-day model. It seems to me to be 
an awfully long time even with job shortages. I believe that 
your report--a very excellent report--shows that there is still 
a lot we have to learn. Thank you, Mr. Chairman.
    Mr. Lynch. Thank you.
    The Chair now recognizes the gentleman from Maryland, Mr. 
Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much. Is it Doctor Kettl?
    Mr. Kettl. Yes, indeed.
    Mr. Cummings. Dr. Kettl, first of all let me welcome you to 
the University of Maryland. I am a graduate of the Law School 
and my oldest daughter just graduated from their School of 
Public Policy. She had a great experience. We welcome you.
    Mr. Kettl. Thank you so much, Mr. Cummings. I am very much 
looking forward to joining everyone in Maryland.
    Mr. Cummings. Very well. Let me ask you something. I am the 
subcommittee chairman of the Coast Guard and I just found it 
interesting that you mentioned them here. Looking at what you 
said about leadership, and when I read what you wrote and I 
hear what you said, I am just curious as to do you think in 
Katrina that some of the other agencies failed because they 
were not properly taught to lead?
    I am not trying to put you on the spot, but let me tell you 
what I have said in the past about Katrina. What I said was 
Katrina should have been one of the greatest embarrassments to 
our country that we could have people drowning in their own 
urine and unable to get a piece of bread or drink of water in 5 
days. For the life of me, I am trying to figure out how does 
that happen.
    I think part of leadership should be that when you prepare 
for situations like a Katrina, especially post 9/11, that there 
should be integrity; there should be empathy; there should be 
clarity. People should have a game plan. I think that is all a 
part of leadership. You should be in a position so that when 
the rubber meets the road, you don't discover that suddenly 
there is no road. So these were Government agencies.
    I know that you didn't say they failed. I am saying they 
failed, except the Coast Guard. They saved over 35,000 people 
and did it well. Thad Allen is a great leader. But I am just 
trying to figure out what is it that the Coast Guard has? What 
does that mean, teaching them leadership? This is not a trick 
question, by the way. There are a lot of people who, I think, 
don't know that they are leaders. Does this entail bringing 
that out of them? Are you following what I am saying?
    Mr. Kettl. Absolutely.
    Mr. Cummings. Some people think they are just supposed to 
just come in and be on the assembly line and go home at the end 
of the day. But in fact, there is leadership there. Is that a 
part of the training that is bringing that out of them so that 
when they get into the Katrina-type situations somebody can 
stand up and say, wait a minute, let us get this done?
    Mr. Kettl. Mr. Cummings, I couldn't agree with you more on 
everything that you have said. It is unfortunately the fact 
that some agencies did go to New Orleans and did fail. The 
Coast Guard arrived and started to succeed. The crucial 
difference between the two is that the Coast Guard, in fact, 
led. It trained people. It had a human capital system within it 
to develop leaders and to train each of its workers--from the 
very highest levels to the front line people--to understand 
that their role was in fact to lead. So they consciously 
understood it was their job to solve problems.
    Unfortunately, it was the case that for many people in 
other agencies, they didn't perceive that. They didn't have the 
training and had not done what the Coast Guard had done, which 
was first to figure out how to learn from previous cases how 
best to try to adapt to things they had never seen before and 
second how to try to train their workers, their employees, and 
their leaders to be able to respond effectively to those crises 
when they arose.
    They developed a system within the Coast Guard to do that, 
which is why they succeeded where other agencies did not. That 
is why, as I said, I had my polite disagreement my friends from 
the GAO who say that maybe only 18 of the 30 issues are human 
capital issues. I would argue that all 30, all of the crucial 
issues that the Government faces, at the core have to do with 
human capital. They have to do with leadership development, the 
development of specific skills that are required so that 
competencies are in place and so that individual workers 
throughout the Government understand that it is their job to 
lead at whatever level they sit.
    Mr. Cummings. Thank you, Mr. Chairman. I see my time is up.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Lynch. Thank you.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Thank you very much, Mr. Chairman. Let me ask 
you about what we have been hearing about interns and 
internships. It sounds like the Federal Government doesn't have 
a structured approach. Maybe it is each agency figuring it out 
for itself. We actually heard Mr. Berry sort of indicate that a 
lot of interns end up just discouraged at the idea of making a 
career out of Federal service. They just find it too hard and 
the experience frankly unsatisfying. Now, that really troubles 
me because this is not rocket science.
    The private sector has figured out how to have very 
creative and structured internship programs they use for 
recruitment and retention. Many local and State governments 
have done the same. My local government certainly had a very 
structured internship program that has been very successful in 
terms of dealing with young people and getting them to think 
about a career in local government.
    Why do you think the Federal Government hasn't figured this 
out? Why are we turning what should be a positive experience 
into actually something that is negative?
    Mr. Kettl. Mr. Connolly, I think the problem goes back to 
the basic OPM issues that we were talking about before, about 
thinking about the system-wide human capital issues that we 
need to try to be able to address. There are some superb 
internship programs in the Federal Government and the very 
best, I think, is actually at the Government Accountability 
Office. When my students ask where to go, I send them there 
first because GAO does everything that we understand ought to 
be done. There is mentoring. There is job development. There is 
rotation. Students of mine who come away from that say, I would 
like to spend my career working for them.
    Unfortunately, we either have a process that makes it 
difficult to get in or when students do get in, they don't have 
a very good experience. When they do have a good experience and 
they want to be able to pursue it, the entry process in the 
Federal service later becomes difficult to negotiate. Later, 
when the try to enter through the Presidential Management 
Fellows Program, they find it impossible to negotiate. Then 
students who sometimes get into the Presidential Management 
Fellows Program end up spending 2 or 3 years looking on it as 
something to punch their ticket and go make more money in the 
private sector. We lose the investment that we have made. If we 
were to try to design a system more designed to fail us, it 
would be hard to do better.
    This is an opportunity to sit and think carefully about how 
we can get our very best students into the Federal work force, 
how to train them, how to develop them, and how to make them 
leaders but to also to think about other alternatives like this 
kind of lateral entry at higher levels where students get 
experience in the private sector and come back in a little bit 
later.
    If there is anything we know about today's students it is 
the idea of a lifetime career for 30 years working for one 
employer is a non-starter. So why we should spend all of our 
energy only on entry and retention when some of it is going to 
be a back and forth kind of career is an important personnel 
and strategic work force issue that we have to try to deal 
with. Flexibility with an idea toward focusing on developing 
competencies and leaders is the basic approach we need to take 
with a procedure that doesn't get in the way.
    Mr. Connolly. Thank you. By the way, on Presidential 
Management interns, I thought it was sort of a fast track. If 
you got into PMI, there was a fast track to get into Federal 
service after your internship was completed. Is that still the 
case?
    Mr. Kettl. That is still the case. Unfortunately, first it 
is hard to get in. What a Presidential Management Fellow 
finalist position essentially does is give you a hunting 
license with a large stack of notices saying, good luck, we 
hope you can find a job. Then unfortunately what we have 
discovered is that there is a very high level of turnover for 
Presidential Management Fellows who get into the Government, 
who then go and spend 2 or 3 or 4 years and in some cases 
leave. The numbers are embarrassingly high in precisely the 
people we ought to be trying hardest to recruit and to retain.
    Mr. Connolly. Could I ask about, going back to our 
discussion about sort of specialized acquisition expertise in 
the Federal Government. I am really concerned at the fact that 
we have more than doubled procurement and basically acquisition 
procurement positions have roughly remained stagnant. What do 
you think we need to be doing as we move forward?
    Ms. Jones. The question is for me?
    Mr. Connolly. Certainly, let us start with you, Ms. Jones.
    Ms. Jones. I am sorry, could you repeat the last part for 
me, please?
    Mr. Connolly. Yes. The question has to do with the fact 
that we have increasingly large, complex acquisition contracts 
in the Federal Government and I am worried that we are losing 
expertise to manage those projects, both to the private sector 
and to retirement. We are also simply not keeping up with the 
volume.
    Ms. Jones. So what can we do about that across the 
Government? Well, I think in some of the work that GAO has 
done, we have suggested that agencies do a needs assessment in 
terms of their acquisition work forces to see essentially how 
many are going to retire with what particular kinds of skill 
levels and where they are located within their agencies.
    Then they need to undertake more intensive recruitment 
efforts which could entail a number of things. It could entail 
making contacts with professional organizations of acquisition 
work force people. It could entail trying to interest younger 
people in the acquisition work force. It could entail also 
trying to keep some of the people who are eligible to retire, 
to keep them on after their eligibility is enforced. It could 
also entail bringing in people who have not worked in the 
Federal Government before, perhaps older people who are 
experienced in acquisition techniques but who would be 
interested in working in the Federal Government.
    Mr. Kettl. Mr. Connolly, let me suggest a couple of things. 
The first is the idea of addressing this question as a systemic 
problem that needs to be handled systemically. We need to try 
to develop a strategy for doing this which requires, second, 
understanding the basic competencies that are going to be 
required for contract management. There are a lot of people who 
enter Federal service, not with the idea of becoming contract 
managers as their career, but as accountants, biologists, 
chemists, or veterinarians that become contract managers. The 
mismatch between the skills that they need and the skills they 
come in with is often very large.
    We need to identify the competencies that they need. We 
need to try, third, to develop those competencies in a 
systematic way with the kind of training that Mr. Berry 
suggested. We need to try to make the contract work force a 
high prestige area with an understanding that these are people 
who are leveraging, in many cases, hundreds of billions of 
dollars. So performance needs to hinge on their ability to be 
able to take that job and inculcate the values that we need.
    Finally, I think that we need to try to bring our 
performance system into line so that it creates leverage not 
only within the Government but across into the private sector 
work force and the private sector contractors that are 
responsible for the performance of these programs. Performance 
has to be understood as this kind of multi-sectional thing. But 
it goes back to the question of taking a systemic problem and 
handling it systematically, which I think is an essential task 
that OPM has to take on.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Lynch. The Chair now recognizes the former chairman of 
this subcommittee, the gentleman from Illinois, Mr. Davis, for 
5 minutes.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Let me thank both the witnesses. As I have listened to the 
questions and answers, it continues to occur to me--and perhaps 
this would have been a better question for Mr. Berry--that we 
focus a great deal on the Office of Personnel Management. I am 
not always convinced that the Office of Personnel Management 
has as much influence over the actual functioning of agencies 
within the Federal Government. It seems to me that OPM is more 
of an advisor, a recommender. But when it comes to actual 
implementation, that it just doesn't have it. I know, Ms. 
Jones, maybe this is not a good question for you. That is not 
necessarily your role. But how do you see OPM in terms of the 
ability to actually get its recommendations or its decisions 
implemented?
    Ms. Jones. Well, we have done work in the past in which we 
suggested, in fact stated, that OPM can assist the agencies in 
terms of providing suggestions and technical assistance in 
terms of developing policies and providing frameworks for them 
to use in designing, implementing, even evaluating their human 
capital planning processes. We also feel that they can share 
agency best practices. They can work through the Chief Human 
Capital Officers Council and share in information.
    We have also said that OPM has made a lot of flexibilities 
and tools available to the agencies. I think that there are 
some questions about why there is a range of utilization of 
some of the human capital flexibilities and tools across 
agencies. I don't believe that we have actually done work to 
show why OPM has offered advice and tools and there is this 
range of adoption.
    Mr. Davis of Illinois. Maybe we ought to rename it and make 
it the Office of Personnel Recommendations. [Laughter.]
    That might be better. Professor, just let me ask you your 
reaction.
    Mr. Kettl. Mr. Davis, I think you are right about the point 
that it is very hard from headquarters at OPM to push buttons 
and make things happen throughout the rest of the Federal 
Government. But let me try to reframe it a different way and 
sort of ask a different question. Given the complexity of 
trying to manage Federal contracts, the difficulty of trying to 
make sure the Stimulus package works well, of making sure that 
the bank bailout is an effective program, where is the big 
thinking in the Government about how to do that? How do we do 
that right; how do we do that well?
    One of the things that I think that OPM can do, and then by 
doing it exert much better leverage, is to think about these 
thoughts and to try--not on its own because it can't solve the 
problem on its own--to make sure the thoughts are being 
thought, that ideas are being framed, that competencies are 
being developed, and that the training programs to support that 
then come out of that.
    What OPM can do most effectively beyond trying to drive 
these procedural changes that we have all talked about and 
agree on, like making it easier to get into the Federal work 
force, is to think about what it is that OPM and the Federal 
Government need to do. What kind of work force do we need to 
get the job done? Somebody has to be thinking about that and it 
ought to be OPM.
    Right now, I think GAO has been doing a terrific job but 
there needs to be a force inside the executive branch to drive 
that at the highest strategic levels to make sure that we have 
the Government that we need and deserve.
    Mr. Davis of Illinois. It seems to me that you are leading 
us toward a more mandated approach. I mean, leadership you 
mentioned. I have my own little definition of leadership that I 
often like to use that says that leadership is the ability to 
get other people to do what you want them to do but because 
they want to do it. It seems to me that we are not getting the 
agencies to want to comply with some of these recommendations 
that I hear coming out of OPM or coming from GAO. We really go 
around the circle, round the circle. It is kind of a repeat, a 
repeat, a repeat.
    But maybe this is the time when something can really 
happen. Because I haven't seen the kind of changes during the 
10 years that I have been here and we have had these 
discussions. It seems to me that the more we talk about change, 
the more things remain the same.
    Mr. Kettl. Mr. Davis, for better or worse, we have epic 
problems on our plate right now on a scale unlike anything that 
anybody has ever seen. Ultimately, one way or another, these 
all come down to people problems. The only way the Government 
is going to be able to solve that is by putting a work force in 
place to be able to do it. It is an incredibly exciting time to 
be talking to students and new employees and people interested 
in lateral entry about joining the Federal service because 
there is an opportunity to leverage an enormous amount of 
public good given the tools the Government has. But it requires 
some thinking about where it is that we want to go and the 
direction in which we want to drive this.
    Mr. Davis of Illinois. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Lynch. Thank you. Rather than do another round of 
questions, I would like to offer you the same opportunity that 
I gave to Director Berry in the previous panel. Are there 
points that you would like to amplify in terms of the way 
forward?
    This is an important time as you both mentioned. If 
necessity is the mother of invention, then we certainly have 
fertile ground with all of the myriad problems that we are 
facing now in Government and the necessity of dealing with the 
complexities of the financial institutions, and globally with 
the interface between our agencies and the rest of the world. 
We really need our Federal employees to step up. They are 
willing to do so but I think they are shackled in a system that 
diminishes their ability to reach their maximum potential.
    On that very broad point, Director Jones or Dr. Kettl, both 
of you if you would like, just sort of let the committee know 
what you think is most important about that way forward.
    Mr. Kettl. Mr. Chairman, I think that is exactly the right 
question. Let me try to take a stab at answering it in two 
ways. It is easy to talk broadly but it is probably more 
effective to talk about who needs to do what.
    The first who has to be the Office of Personnel Management, 
which faces a critically important time to rethink what it does 
and how it goes about doing it. Part of its job has to be the 
process of trying to figure out on behalf of the Federal 
Government what the answer to those questions is. There has to 
be some kind of institutional knowledge and capacity or debate, 
if you will, about what are the problems we face, what is it 
the Federal Government is going to need to solve them, and how 
can we get it done.
    It is not that how many days it takes to hire a Federal 
employee is not important; it is critically important. It 
drives people away. But it has to be in pursuit of the bigger 
picture. OPM has to take that bigger strategic role because if 
it doesn't, my fear is it won't happen. If it doesn't happen, 
we will find ourselves crippled in trying to solve these 
problems we know we have to address.
    The second thing is to applaud this committee's and 
subcommittee's work in this area because congressional 
attention on these issues is something that is terribly 
important and critical in sustaining the debate, ensuring that 
there is the possibility for action, and creating an 
opportunity for a broader conversation on these issues. This 
has the risk of sounding a little bit philosophical, but there 
has to be a kind of broad discussion and debate about 
rethinking the public service because we are rethinking 
Government, whether we like it or not. We need a public service 
that is going to be supportive of that. Congress has a terribly 
important role in supporting that debate and discussion.
    Mr. Lynch. Thank you.
    Director Jones.
    Ms. Jones. Mr. Chairman, OPM has undertaken a great deal of 
work on human capital planning and management for the Federal 
Government and has put in place a number of tools. The Congress 
itself has passed legislation to offer greater flexibilities to 
the agencies. It would appear that this is a time when OPM and 
the agencies could use either existing mechanisms like the 
Chief Human Capital Officers Council or to use other mechanisms 
to have discussions about of all of the flexibilities and tools 
and policies that are available for acquiring and training a 
highly capable Federal work force.
    Ask what is working, what isn't working, and where are 
their barriers. Identify the barriers; undertake discussions as 
to how those barriers could be removed. If there are new 
policies, we need to have discussions about that. But move 
forward in terms of trying to develop the kind of Federal work 
force that we would all like to have.
    Mr. Lynch. I want you both on behalf of the subcommittee 
and the committee. I want to thank you both for your 
willingness to come forward and help us with this problem. 
Thank you very, very much for your appearance here today.
    Mr. Kettl. Thank you, Mr. Chairman.
    Mr. Lynch. Good day. I would like to welcome the next 
panel. Good afternoon. It is the committee's policy that all 
witnesses are to be sworn. Would you please stand and raise 
your right hand?
    [Witnesses sworn.]
    Mr. Lynch. Thank you very much. Let the record show that 
all the witnesses answered in the affirmative. Thank you very 
much for your willingness to appear before this committee and 
help us with our work. I would like to introduce our panelists.
    Max Stier is the president and chief executive officer of 
the Partnership for Public Service, a nonprofit, nonpartisan 
organization dedicated to revitalizing our Federal Government. 
Mr. Stier previously worked in all three branches of the 
Federal Government. Prior to joining the Partnership, he served 
as Deputy General Counsel for Litigation at the Department of 
Housing and Urban Development.
    William Bransford is the general counsel and acts as a 
lobbyist for the Senior Executive Association. He also served 
as general counsel for several professional association 
including the Federal Managers Association, the FAA Managers 
Association, and National Council of Social Security Management 
Association. Mr. Bransford has written numerous publications on 
Federal employment law and is co-author of a guidebook, The 
Rights and Responsibilities of Your Federal Employment. He co-
hosts Fed Talk, a weekly radio show on Federal News Radio.
    Mr. Bransford is partner of Shaw, Bransford, Veilleux, and 
Roth, P.C. where he has practiced since 1983. His practice is 
concentrated on the representation of Federal executives, 
managers, and employees. Prior to joining SBVR, Mr. Bransford 
was a Senior Attorney at the Internal Revenue Office, Office of 
Chief Counsel representing the agency on labor and employment 
law issues.
    Patricia Niehaus has been the president of the Federal 
Managers Association, Chapter 167, at Travis Air Force Base for 
two terms and was reelected to another 2 year term in January 
2008. Ms. Niehaus is presently the Labor Relations Officer for 
Travis Air Force Base. She was first assigned to the Travis Air 
Force Base Civilian Personnel Office in 1986 at the FMA zone 
level. She has served as vice president of Zone 7 for two 
terms.
    Welcome and thank you again for your willingness to appear. 
Why don't I give you each an opportunity to address the 
committee with your general remarks and then we will follow 
that with questions. Mr. Stier for 5 minutes. Thank you.

  STATEMENTS OF MAX STIER, PRESIDENT AND CEO, PARTNERSHIP FOR 
  PUBLIC SERVICE; WILLIAM BRANSFORD, GENERAL COUNSEL, SENIOR 
   EXECUTIVES ASSOCIATION; AND PATRICIA NIEHAUS, PRESIDENT, 
     CHAPTER 167, TRAVIS AIR FORCE BASE, FEDERAL MANAGERS 
                          ASSOCIATION

                     STATEMENT OF MAX STIER

    Mr. Stier. Great. Thank you very much, Mr. Chairman and 
members of the subcommittee.
    First, to begin, I thank you for your recognition of public 
service employees with your announcement of Public Service 
Recognition Week taking place the first week of May. I think 
that is very important for the public to have a better 
understanding about their work force. That has to come from 
more awareness of it and this is a way to do that.
    This is an incredible opportunity. You heard from a lot of 
witnesses about the importance of this moment in time. Just to 
give you one other way of looking at it, by our estimates the 
Federal Government will be hiring close to 600,000 people in 
the next 4 years, almost a third of its work force. If you look 
at history, you see 1930's, 1960's, and now. This is a once in 
a lifetime opportunity to shape the Government work force. It 
is vital that you focus on these issues.
    You heard a lot about different recommendations. I would 
love to have an in depth conversation about some of them, but I 
thought in my short statement here the most value I could add 
would be to try to give you a world view that might help you 
place these different recommendations in context. My view is 
that there are two primary reasons why Government is in 
terrible shape right now with respect to management.
    The first is you have short term political leaders that are 
not aligned with the long term interests of Government's 
health. If you are in office for 18 months to 2 years, the 
average tenure of the political appointee, you are not incented 
to focus on those long term pipeline issues. Those student 
interns are not going to help you in those 18 months to 2 years 
and therefore they don't pay attention to it. They don't 
prioritize it.
    The second is there is a lack of real time operational 
information. They don't know and no one knows the real health 
of the organizations they are running.
    If you combine those two factors, you have a mess because 
you can't even hold the folks who are in office for 18 months 
to 2 years accountable for the timeframe that they are there. I 
think those two issues should frame this larger set of 
solutions that we need to be focusing on. So let us bring this 
down one level and look specifically at the human capital 
issues, the people issues. I think that the main challenge is 
that it is not one challenge, it is a host of different issues. 
I would put them into three different buckets.
    The first is that most talent doesn't even know about 
Government service, does not even think about Government 
service as public service anymore. We have done the only 
research on the question of how to entice talent into 
Government in a cost effective and sustainable way on the 
civilian side. Military has done a ton of work on this. What we 
found is by and large, most talented people on university 
campuses or older Americans simply don't think about Government 
jobs. They don't think about a job that might be right for them 
and they have no idea how they could pursue a job that might 
actually be of interest to them.
    The second bucket is the hiring process. You have heard it 
discussed. However, in fact, it is four different issues, not 
one. The challenge is to focus on all four of them. For the 
applicant experience, it is too slow. That is what everyone 
focuses on. It is too difficult. And it is nontransparent, 
meaning you don't know where you are in the process. You might 
be willing to wait those 80 days, the hiring model which I 
would love to discuss if you want to, if you knew it was in 
fact going to be 80 days. But you don't. It is a black hole. 
You know what that FedEx package is, where it is. You don't 
know where your job application is in Government.
    Again, I am speaking in generalities because there are some 
places in Government that do it right. In fact, almost 
everything that needs to happen in Government is happening 
somewhere, not everywhere. That is also an important fact to be 
focused on. So the second bucket is this hiring process. It is 
too slow, too difficult, and nontransparent from the applicant 
side.
    Most important, something that the applicant doesn't see, 
is that Government often hires wrong. It doesn't choose the 
right person after that. Truth be told, whether you hire 
quickly or slowly, if you hire poorly it doesn't matter. That 
is an aspect that no one pays attention to.
    Then the third piece is what happens to folks once they 
arrive. When I say arrive, that is from the point at which they 
get the job offer to the first year--the on board experience--
and then their longer term tenure. Again, the Government, by 
and large, does a very poor job here. It doesn't invest in its 
talent. It doesn't provide the development and training 
experiences. It doesn't provide the kind of management that 
people want and need both to stay and to give other 
discretionary energy.
    I think if you focus on that broader map, and then you 
envision what kinds of solutions you need to address those set 
of issues, then you are going to make a real difference here. 
There is a ton of things for you to do. There are some things 
that have already started. The hiring process is a wonderful 
piece of legislation that Senators Akaka and Voinovich have 
introduced in the Senate. It is something that it would be 
terrific for this committee to try to work on here.
    We believe there should be an applicant bill of rights. We 
believe that applicant bill of rights should guarantee to 
applicants that they have a timely, easy, and transparent 
hiring process and that there is information for all of that. 
That is absolutely vital. We believe that the Government should 
be investing in leadership training. We believe that we need to 
see a Serve America Act, which got signed by the President 
yesterday, that doesn't just deal with community and volunteer 
service but actually deals with Government service. The notion 
of the Roosevelt Scholars, the civilian ROTC program, again, 
that is something that would make a very big difference to the 
talent market. Education has become real expensive. The 
military gets 40 percent of its talent from the ROTC program. A 
civilian counterpart would make a lot of sense.
    So I would love to have an opportunity to talk further 
about this and many other issues. I hope that the Partnership 
can be of help.
    [The prepared statement of Mr. Stier follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Thank you, Mr. Stier.
    Mr. Bransford.

                 STATEMENT OF WILLIAM BRANSFORD

    Mr. Bransford. Mr. Chairman and members of the 
subcommittee, the Senior Executives Association appreciates the 
opportunity to share its views that concern the state of the 
Federal work force, especially those that concern the Senior 
Executive Service.
    SEA has for the past 28 years represented the interests of 
career Federal executives. The Government is facing a critical 
juncture. Problems with pay and performance management systems, 
the hiring and acquisition processes, and the potential 
onslaught of retirements threaten to reduce the effectiveness 
and quality of the Federal work force. It is imperative that 
reform efforts be undertaken to address these issues.
    Before proceeding to specific SES issues, I would like to 
address something that has been discussed already. It is the 
crazy quilt of the personnel and pay systems that has developed 
in the executive branch as many agencies have sought and 
received authority for separate personnel and pay systems. This 
is true both generally and specifically for the executive 
corps. This proliferation has hindered oversight. It has 
prevented coherent human resource policy development and 
management of the Government's most valuable resource, its 
employees. A consideration of the problems that have resulted 
from this proliferation is one worth undertaking and essential 
if we are to see truly significant change.
    An important component to this significant change is 
effective leadership at the highest levels of the Civil 
Service. Given the critical issues facing our country, we 
believe it is imperative that career leadership be 
strengthened. Career executives provide continuity and 
expertise necessary to ensure critical programs are run 
effectively. To restore career leadership, SEA recommends that 
all agencies fill the position of Assistant Secretary of 
administration with a career senior executive.
    Also, we believe that Cabinet level agencies should have at 
least one career senior executive at the Principal Deputy 
Assistant Secretary level for each Assistant Secretary or 
comparable position and that chief positions, for example Chief 
Human Capital Officer and Chief Fiscal Officer, to the extent 
practicable, be filled by a career appointee.
    Another serious human resource challenge is the current SES 
pay and performance management system. SEA believes the system 
needs to be modified to ensure that quality applicants will 
aspire to the SES and those already in the SES will want to 
stay.
    An unfortunate pattern is developing among quality GS-14 
and 15 employees to the effect that they are not interested in 
becoming a senior executive. This is due in large part to the 
skewed risk and reward ratio that senior executives face. 
Senior executives take on more duties and work longer hours yet 
receive no compensatory time, no locality pay, and no 
guaranteed annual comparability raises, all of which are part 
of the compensation system for the GS employees.
    Furthermore, SES annual pay increases have not kept up with 
GS increases over the past several years because increases in 
the Executive Schedule, which sets the caps for SES pay, have 
lagged behind GS increases. Today a GS-15, Step 10 earns a 
salary that is well into the range for SES pay. A 2008 OPM 
survey found that only 50 percent of senior executives believe 
that the current SES pay and performance management system was 
helpful in recruiting qualified applicants for SES positions. 
This mirrored similar findings in the 2006 survey undertaken by 
SEA.
    What is clear after four cycles in this new pay and 
performance management system that was meant to relieve pay 
compression and to be transparent, flexible, and reward 
performance has instead become a disincentive for many of the 
best candidates to the Senior Executive Service. To correct 
this risk reward ratio, SEA proposes providing guaranteed 
annual increases with a locality pay component to all senior 
executives rated as fully successful or better and including 
performance awards in a senior executive's high three annuity 
calculations.
    The Federal hiring process is another area in need of 
reform, especially for senior executives. OPM recently started 
a pilot program to attempt to streamline the process. While SEA 
supports these initiatives, we do have concerns with OPM's 
experimental use of virtual QRBs. A QRB, or Qualifications 
Review Board, is an important merit system safeguard that 
protects the career SES from politicization and assures that 
only qualified candidates become executives. Traditionally, 
these QRBs have been in person meetings. Our concern is that a 
QRB that is too virtual will not be able to carefully and fully 
assess executive qualifications.
    By implementing necessary reforms now to both the SES 
system and all levels of the Federal work force, many problems 
can be addressed before they become intractable. SEA looks 
forward to working with Congress, OPM, and the administration 
to find creative solutions to ensure that the Federal 
Government's human resource management practices appropriately 
serve the work force, Federal agencies, and the American 
public.
    [The prepared statement of Mr. Bransford follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Thank you, Mr. Bransford.
    Ms. Niehaus for 5 minutes.

                 STATEMENT OF PATRICIA NIEHAUS

    Ms. Niehaus. Thank you for this opportunity to present our 
views before the subcommittee. Please keep in mind that I am 
here on my own time and of my own volition, representing the 
views of FMA. I do not speak on behalf of the Air Force.
    Today the Civil Service finds itself at a critical 
juncture. As roughly half of all Federal workers become 
eligible for retirement within the next decade, Congress must 
set an aggressive agenda to avoid a potentially disastrous 
retirement tsunami and promote confidence in Government. In our 
written statement, we make several recommendations to assist in 
Federal recruitment and retention as well as to prompt other 
needed changes to make Federal employment more attractive. I 
would like to address some of them now.
    One of the many impediments potential employees face when 
considering a career in public service is the length of time it 
takes to navigate bureaucratic procedures during the hiring 
process. Most job vacancies take at least 3 months to be filled 
and upwards of a year if a security clearance is necessary. If 
the Federal Government seeks a reputation as the premier 
employer, it is essential that agencies operate in a fashion 
that most efficiently and effectively meets their own needs and 
the needs of those they seek to hire.
    It is our experience that many applicants are more 
interested in serving the public than a particular agency. An 
individual seeking employment may apply for a position in one 
agency because that is where the vacancy is presented but they 
may be more than willing to work for several other agencies. 
The Government must do a better job in reaching out to these 
applicants. It is a shame to hear potential employees express 
frustration with the Federal hiring process and give up on a 
career in Civil Service.
    Legislation we produced in the Senate seeks to drastically 
reform the process by which the Federal Government hires 
individuals into public service. The bill requires agencies to 
post job announcements in plain language and provide timely 
updates on each application's status. The bill further mandates 
agencies develop work force plans based on hiring needs and 
that no position be vacant for more than 80 days. The men and 
women in search of employment in the public service will not 
wait months, let alone a year, for the Government to contact 
them before looking for other work. It is essential that 
Congress consider this common sense proposal to capitalize on 
the current interest in public service.
    As the Federal Government competes against the private 
sector, agencies must take advantage of the tools at their 
disposal to recruit talented workers into public service. The 
use of added incentives may ultimately persuade individuals on 
the fence, especially if they have to endure a lengthy hiring 
process. Monetary payouts and student loan repayments have 
proven successful recruiting tools. Based on information 
gathered from 41 agencies by OPM, the use of recruitment 
incentives increased by 95 percent from 2006 to 2007 and proved 
critical in accomplishing strategic human capital goals.
    In 2007, agencies distributed over 7,000 incentive payments 
totaling nearly $58 million. While Federal agencies award 
themselves high marks for allocation of those payouts, the 
usage of student loan repayment programs is woefully deficient. 
Of the 83 agencies reporting, only 33 provided that benefit to 
their employees. While this marks a 15 percent increase over 
2006, we are still falling short of where we need to be. Since 
all agencies responding noted that student loan repayment had a 
positive impact on recruitment and retention, more agencies 
should be taking advantage of this program.
    I would now like to address the need for proper training 
within the Government. Current law requires agencies to 
establish a training program for managers. However, there is no 
accountability for managers to participate and during times of 
strained budgets, training is typically the first program to 
meet the chopping block. An agency's ability to meet its 
mission directly correlates to the quality of work force 
management. If an agency promotes an individual to managerial 
status but fails to develop the individual's supervisory 
skills, that agency severely jeopardizes its capability to 
deliver the level of service the American public expects.
    The development of managerial skills is one of the greatest 
investments an agency can make, both in terms of productivity 
gains and the retention of valued employees. We at FMA support 
legislation introduced in the Senate which requires agencies to 
provide interactive, instructor-based training within 1 year of 
promotion to management and every 3 years thereafter.
    If the Federal Government is to stand as the employer of 
choice, we must remain dedicated to advancing policies that 
strengthen the core principles of the Civil Service. Whether 
developing recruitment incentives or enhancing existing 
programs, we must understand that the Government's most 
important resource is the men and women who devote their lives 
to the public good. Consideration of the suggestions discussed 
in my testimony will facilitate our efforts to confront the 
challenges posed by an evolving work force.
    Thank you again for the opportunity to express our views 
and I am happy to answer any questions you may have.
    [The prepared statement of Ms. Niehaus follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Thank you very much. Thank you for the 
timeliness of your remarks.
    As a Member of Congress, I get to speak before a lot of 
student groups and especially a lot of high school groups. 
Several weeks ago, I spoke to the junior and senior classes at 
Mount Saint Joseph. It is a local Catholic school in my 
district. I talk to a lot of college groups as well. Part of my 
riff, if you will, is talking about public service and about 
the wonderful opportunities, the interesting areas where people 
work, what we do. I get the sense that in some cases, it is the 
first these kids have heard of it. I don't think that we do a 
good job at selling ourselves in terms of the career 
opportunities that are existing in public service. You all hit 
on that issue.
    Now, Mr. Stier, I know that your group has worked basically 
to try to facilitate communication between students who might 
be prospective Federal career people, between the students and 
the agencies. I think, perhaps, your experience and your 
observations in doing that would help the committee if we could 
hear about that.
    Again, I guess the second part of my question would be to 
all three of you. Are there certain specific regulatory 
changes, changes in the law, that would allow us to move people 
into Federal service quickly and in a better way? As you say, 
it is not just about doing it faster, it is doing it right by 
getting those right candidates into positions that they would 
be, I guess, maximizing their potential.
    As well, some of the folks we need to pull into public 
service, especially with respect to the TARP program and this 
financial services oversight, we need experienced people that 
are right now in the private sector and understand how this 
system works. We have to get them into sort of a lateral shift.
    That is a long question, but could you talk about your 
experience? Are there any changes that you think could be 
adopted in a timely fashion that might address the need?
    Mr. Stier. Sure. You put your finger on the first bucket. 
People are simply not aware about the opportunities in the 
Government for them. That is true both for younger talent as 
well as more experienced talent. We have done research for both 
cohorts. So you have the exact same problem.
    Government really hasn't been in the business of recruiting 
for a very long period of time. You saw a downsizing of about 
400,000 jobs in the 1990's. Government, by and large, is way 
behind the game. The world is changing real fast; Government 
simply has not kept up. We are not doing the kinds of things 
that you need to build relationships over time with the talent 
market that are necessary.
    There are a lot of things to be done. We have a program 
called Student Ambassadors.
    In fact, we know from our research the most effective 
mechanism of interesting people is to hear from near peers. 
People knew people in Government who had just come in, who are 
excited about their job. They are going back to their alma 
mater and they are the ones that are going to be more credible 
with their near peers about the opportunities and the 
advantages of going into Government.
    Government typically recruits from the perspective of its 
own organizational image as opposed to what the talent market 
is interested in, meaning that you have people going out from 
the Department of Energy or Department of Homeland Security 
talking about their agency. They should be talking about their 
career paths and career patterns that the talent is interested 
in. Engineering careers in Government, IT careers in 
Government, you name it, that is the way it has to present. We 
have done a ton of work on this which we would be happy to 
share with you if it is at all useful.
    There are very specific things that Congress can do. If 
there is one thing that is most important, however, it is in 
helping promote a sense of prioritization of these talent 
issues in the executive branch and the leadership and having 
you ask questions not just of Director Berry, who I think has a 
great vision of what needs to happen.
    People talked about OPM here. OPM is important, but truth 
be told, this is a Government-wide issue. If you look at any 
well run organization, it is the top leadership that pays 
attention to talent, not just their HR function. OPM can do a 
lot better but it can never do the job on its own. We actually 
need to see every single agency stepping up its game and 
leadership in every agency prioritizing the issue of talent if 
you want to see real change. That would be the most important 
thing that could possibly happen.
    I want to make sure there is some time for my colleagues 
here.
    Mr. Bransford. I would like to focus a little bit on what 
slows down the Federal hiring process. First of all, it is a 
merit system. We want to make sure we get the most qualified 
person. Second, there is Veterans Preference, which is a very, 
very important component but it does require agencies to go 
through certain processes. There have been efforts by OPM to 
simplify that and shorten the time period, but it does take 
more time to consider.
    Then there is the security clearance process which has been 
backed up for a long time now. OPM has made some progress, but 
it still takes 6 to 8 months to get a security clearance.
    Then there is a plethora of hiring flexibilities that 
agencies can use. Sometimes they are confused about that. 
Traditionally, before those hiring flexibilities were 
developed, you were hired off the Civil Service Register. Now, 
with the hiring flexibilities, people come in as Excepted 
Service; they are converted to Competitive Service. So it is 
kind of all over the place on how you come into the Federal 
Government.
    Then I heard, and I am not an expert to talk about this, a 
talk which featured a retired OPM executive who talked about 
what went wrong in 1979 and 1980 with the Civil Service Reform 
Act. That executive talked about the fact that there was 
supposed to be a delegation of examining authorities from OPM 
to agencies. Their concern was it had not really happened like 
it was supposed to. I think it has happened somewhat. Like I 
said, I am not a personnel technician expert to talk about 
that, but I think it is worth looking into. To what extent has 
that been part of the problem?
    Mr. Lynch. Ms. Niehaus.
    Ms. Niehaus. The delegated examining units that OPM has 
established, I know Air Force has one of them for our Air 
Reserve technicians and we do hire them faster than we do the 
other employees because of that. Because they have a specific 
unit. They do maintain a roster of people, so to speak, for the 
different positions. So I think the delegated examining 
authority is a good one to use.
    But I also do think that the security clearances--I work 
for the Air Force--slow down almost every applicant that we 
have, even those that we have who are perhaps retiring military 
or Reservists on the side who want to come in and be either Air 
Reserve technicians or Civil Service employees. Their security 
clearances don't always transfer over so we have to go through 
the process with them again.
    I think that we could make things clearer on USAJobs. We 
get phone calls on a regular basis from people complaining that 
they can't find the announcements, they don't understand the 
announcements, the process takes too long. Streamline that and 
go with the plain language job announcements. Give people a 
status report. If you apply for a job and 60 days later you 
haven't heard a thing from anybody, most people are going 
somewhere else to look. They are not waiting it out.
    Mr. Lynch. Just on a couple of those points, I don't know 
if you were here for the Director of OPM, Mr. Berry's 
testimony, but he did list the security clearance issue as one 
of his top three priorities. So he understands how long that is 
taking. He has expressed an interest and an intent to shorten 
up that, to streamline that whole process. So that was good 
news.
    Let me ask you about the whole overlay system, which is 
what we are looking at here. OPM has been given the 
responsibility of tying this framework together for all of 
these Government agencies rather than having everybody doing 
their own thing, which is causing chaos. It is causing 
competition between agencies. It is causing employees who are 
doing the same thing--the same work, side by side--to be paid 
drastically different wages and benefits, which I think 
undermines a cohesive and positive moral in these jobs. Not to 
mention, I think it is illegal. But it is just the way the 
system has evolved.
    I shudder to think what a class action lawsuit might do to 
our own agencies because if you read the text of the law, what 
is required, we don't seem to be adhering to our own legal 
standard. That troubles me greatly. There are enough 
industrious attorneys out there that at some point we are going 
to be called on that. So it would behoove us to adopt a system 
where people who are doing equal work with equal energy and 
equal effectiveness get paid equally. That is not happening 
right now.
    But what do you think about the role of OPM? I don't know 
if it was because of what happened in the early 1980's with 
Civil Service Reform--I think there was a delegation there in 
part--but in some cases, agencies just got frustrated with the 
lack of progress and just said, hey look, I am going to take 
this responsibility on myself to try to get some things 
accomplished. So now we have a very patchwork system. It is not 
even a system; it is an ad hoc arrangement where agencies are 
doing their own thing.
    I am just trying to think about how a new, recreated system 
with OPM involved would integrate into that system. How would 
they interface with the agencies and provide a general 
framework within which these agencies would work in their 
hiring, their promotion, their retention, and all of those 
things that are so important to our workers.
    Because you have all said that our success is going to 
depend on how we treat our workers. We are supposed to be 
leading by example in the Federal Government. We are supposed 
to be the best employer, the one with the best ideas, the one 
that respects the commitment of our Federal employees to the 
highest degree. I don't see that happening here.
    It has been that one administration does it this way and 
another administration does it that way. There is no continuity 
here. I think it has hurt the morale of some of our Federal 
employees, although I am impressed by so many of the employees 
that I meet with the energy, the goodwill, and the positive 
attitudes that they bring to their jobs every day.
    But could you talk about the OPM overlay and how you see 
that working out?
    Mr. Stier. Look, I think that there is obviously a whole 
host of issues that you have identified there. My own view, the 
9/11 Commission to me said it best. They said that quality of 
the people is more important than the quality of the wiring 
diagram. I think this town is a town that loves to focus on 
wiring diagrams because it is something that seems a little bit 
more tangible. You can get your arms around it. I think that at 
the end of the day, while wiring diagrams are relevant, it is 
really the culture quality issues that are most important.
    My own view is that OPM isn't doing what it needs to do. 
There are a lot of things that it ought to be doing that it can 
do within the existing system. I think it needs to own 
leadership development. It needs to own the full work force. 
One of our challenges here is that we have a work force that is 
the same direct head count as it was during the 1960's.
    The difference is that the Government has gotten bigger but 
you have $532 billion being spent on contractors. I don't think 
you really have anybody imagining strategically what really the 
contractor work force ought to be doing. How do we ensure that 
we have the right talent inside to manage those external 
resources? How do we make sure that we always have the internal 
capacity to get done things that are important for the public 
good?
    That strategic approach to full and complete work force is 
something that I think rightly belongs with OPM, leadership 
development and full work force. It needs to be a facilitator 
of better activity amongst the agencies because by and large, I 
don't think that OPM has the capacities to help agencies keep 
up with that changing world which you described earlier. I 
think if they provided that expertise, they would be enhancing 
their role a great deal. I think Director Berry has outlined a 
whole set of important priorities. There is a lot for them to 
do.
    I think the reality, though, as I tried to state earlier is 
that we have to imagine this as a total Government issue and 
not one localized at OPM. OPM can be part of the problem and 
part of the solution but it can never be the full solution. My 
view is that the tendency is for folks to point and say, the 
problem is OPM, when they ought to be owning that 
responsibility a fair bit themselves. I think DOD is a great 
example. They do a fabulous job in imagining what they need in 
terms of their work force planning, their talent acquisition, 
and their talent development.
    That is a very interesting model. Side by side, you have 
close to 700,000 civilian employees. When I talk to the head 
recruiting General at the Army, I am like, why is it that you 
are not applying the same kind of principles to your civilian 
work force as you do to your military? He is like, ah, it is 
OPM's fault. When I looked at the General, I was like that 
cannot be. If that General cared enough about it, if he 
prioritized it, he would get things done differently, OPM or no 
OPM.
    So partly my answer to you is that there are some very 
concrete things that OPM can and ought to do. It needs to 
imagine itself in a different role. It needs to be able to 
upgrade its own talent so it can provide that facilitation. But 
other agencies have to do likewise.
    Then the final point I would make is this transparency 
information point. We don't know a lot of things we need to 
know. Delegate Norton asked the question about the 80-day 
hiring model. Truth be told, we don't know how long it takes to 
hire in the Government. One of the suggestions that we have 
made, and I think it is incorporated in the legislation in the 
Senate, is we simply map the hiring process for every agency. 
Every agency should map its hiring process and make that 
process public so that you actually understand what happens in 
the hiring.
    I will tell you something interesting. We did a project 
which we called the extreme hiring makeover. We worked with 
three different agencies. We went in and that was our starting 
point. We mapped the hiring process. One agency had 110 steps. 
Forty-five people touched every single hire. As bad as that 
sounds, that is nothing compared to the fact that they didn't 
know. They did not know what their own hiring process was and 
that is why it became what it was.
    Worse than all of the other two things I just said, is that 
they got the wrong person at the end of the process because 
they never had a conversation at the beginning between the 
program manager who needed to hire someone and the HR 
professional who was setting the requirements for the process. 
So they couldn't have gotten the right answer even after going 
through that Rube Goldberg contraption.
    My point here is that we need better information, things 
like the Federal Human Capital Survey, are hugely important. We 
produce our best places to work rankings based on it. But it 
really only happens every other year because OPM only does it 
every other year. It ought to happen every year. We ought to 
have real time operational information. You ought to have that 
so that you can perform your oversight function and we can 
manage better. You can't manage what you don't measure, and we 
don't measure the right things in Government today.
    Mr. Bransford. It is exciting to hear Director Berry talk 
about his efforts to look and try to do something about the 
balkanization of the pay systems. That kind of leadership has 
not be apparent from OPM in the recent past.
    I think OPM's role is one of leadership. To give you one 
example, what they did in the SES area is they took it and 
divided it into four discrete items so that the people who made 
policy decisions about the way the SES should be run had 
nothing to do with the people who actually gave advice to 
agencies on a day to day basis. So they really didn't 
understand or know, other than in periodic meetings they might 
have, about the differences between the two.
    Understanding the issues and problems with the Government; 
working with the agencies; having a direct connection with the 
people who develop policies and strategy; and then actually 
leading Federal agencies to reform, I think the agencies will 
fall in line. If they have a clear vision of what is expected 
and if they understand that they are very much expected to do 
these things, I think they will do them.
    Mr. Lynch. Ms. Niehaus.
    Ms. Niehaus. I think that Max's idea of mapping the hiring 
process and making it public is a great one. OPM could then use 
that to possibly create a general wiring diagram to homogenize 
the different processes that various agencies are using. I know 
that even within DOD there is a large variety because of the 
centralization of personnel systems. Air Force has one central 
personnel system. Army and Navy have regionalized their main 
personnel offices. I think if there was one main diagram for 
agencies to follow, they would be able to be more consistent 
among each other.
    I do agree about the pay system. I know we have nurses at 
our medical facility, which is one of the largest in the Air 
Force, working along side a VA clinic. The VA nurses in that 
clinic have much better pay than our nurses do as RNs. We do 
lose them to the VA, right next door on the same installation.
    Mr. Lynch. My VA hospitals--I have three in my district--
are losing their people to the private hospitals. So it is sort 
of a domino effect.
    Ms. Niehaus. We are in the San Francisco Bay area so we see 
a lot of that, too.
    Mr. Lynch. In your opening remarks, Mr. Stier, you talked 
about the possibility that we could have the Federal Government 
hiring up to 600,000 people in the next 4 to 5 years. I think 
that may be a little high but only because the economy has cut 
the retirement funds of all of our Federal employees by about 
40 percent, at least their Thrift Savings Plans and those 
401(k) type plans.
    So I think some of our folks that were going to go out the 
door are probably rethinking that decision now. But in any 
event, even if it is on the low end of 400,000, you have still 
got a lot of people that are coming into public service very 
shortly. It makes it increasingly important that we plug the 
holes and try to make sense out of this thing before we have 
this surge in hiring so that we bring people in and we train 
them properly in this next wave of hiring. It is incredibly 
important that we get this done.
    As you can tell, there are four other hearings going on at 
the same time. I am actually supposed to be on another one down 
the hall. Let me ask you, rather than following a strict 
question and answer format, are there issues that you think 
absolutely have to happen going forward here as we embark on 
this next wave of hiring? Are there a couple of points that you 
think absolutely must happen in order to give us any chance at 
all of success?
    Mr. Bransford. Mr. Chairman, I think as we move forward, it 
is important to have OPM exercise a leadership role. It is 
important to have the agencies take that seriously. I would 
recommend and encourage the administration to utilize career 
senior executives to a greater extent than they have over the 
past 15 years. It provides the continuity and expertise in 
running Government programs that last over a long time. That 
makes a meaningful difference and that helps in the strategic 
development of programs. It is important to create a 
partnership between OPM and the agencies on the management of 
its human capital. A great tool is the Chief Human Capital 
Officers Council to do that.
    But I think it is wonderful that this subcommittee is 
looking at this issue. I think it is important to keep a 
spotlight on it. I am encouraged by the remarks I heard this 
morning by OPM that as we move forward, there will be some 
serious attention to some very important issues. Thank you.
    Ms. Niehaus. If we are going to grow our work force by 
400,000 or 700,000 civilians, we need to look at our current 
managers. They are going to be the ones who are going to be 
training those people. They are going to have the 
responsibility for the new people. I think we need to focus on 
management training for them and make sure that the budgets are 
available so that training doesn't get cut.
    I know at my installation, that was one of the first things 
that was cut. None of the military education was cut, but 
civilian management training went right out the window. So I 
think that needs to be a priority to make Civil Service more 
viable, to have the management training there, and to make it 
just as important as the military training.
    Mr. Lynch. Absolutely. I couldn't agree with you more. It 
is the first thing to go, to the point where it has been cut 
from every area from our management system. I think it was the 
Director of OPM actually this morning who pointed out that 
fact. We are devoid of any type of organized and systemic 
training protocol in Federal Government right now. We are 
suffering from that gap. Mr. Stier.
    Mr. Stier. Absolutely. I think these are great suggestions 
and I would build off the point. We don't really know actually 
how much money and how much training is occurring. I believe 
that it is happening right now. The hiring, the output of 
talent is incurring today. So you are put in a position where 
you are flying that plane and retooling the engine at the same 
time. I think that the immediacy has to be understood. Partly 
what the priority ought to be is really information.
    So to give you an example, the Department of Homeland 
Security lost three quarters of its career SES, I believe from 
2003 to 2007. We can't tell you why. It is a damning number to 
lose three quarters of your career executives but we don't do 
exit interviews. We don't actually collect the information that 
we really need to understand the problems whether it is the 
amount of money we are spending on training, what happens, why 
do people leave, or what is the applicant experiences when they 
are applying to a job. We can tell you anecdotes and the 
anecdotes are fairly consistent.
    But you don't collect information and in a way to make it 
understandable such that you can actually manage effectively in 
Government. That is one of the things I would be demanding on 
your side, the information that would permit you to understand 
whether your actions are the most high leveraged ones and have 
the most possibility.
    So if you start peeling back the onion and you look at the 
information, you find a target rich environment. We put out a 
report a week and a half ago, which I gave to Director Berry, 
about student intern hiring. It is shocking. We don't actually 
know how many interns we have in the Government. But our best 
count by looking at the two programs SCEP and STEP, not talking 
about volunteers or third party internship programs, Government 
converts only 6 percent of them into full time employees. A 
decent benchmark in other organizations is 50 percent.
    Why that discrepancy? Because we are not thinking about 
internships, student internships, as part of our talent 
pipeline. We aren't prioritizing it.
    There are some very easy solutions we outline in that 
report that this committee could pick up. It would make a big 
difference if we paid attention to it. But again, it is 
information, understanding that there is a problem there 
because you have that data.
    Mr. Lynch. Well, in conclusion I just want to thank you 
each for coming before this committee and helping us with our 
work. I am sure that we are going to call upon you periodically 
for help in devising a solution to at least part of the 
problems that we face. Thank you very much.
    Welcome. Let us see. It is the committee's policy that all 
witnesses are to be sworn. May I ask you to rise and raise your 
right hands?
    [Witnesses sworn.]
    Mr. Lynch. Thank you. Let the record show that all of the 
witnesses answered in the affirmative.
    I have noticed that the last couple of hearings we have had 
the employee representatives of the union heads testify last. 
That is not going to be the custom here, I assure you. I 
apologize for maybe making you wait so long. Nor will I 
continue the practice of having so many panels. I think we 
could probably consolidate some of these and make it less 
painful for all of you.
    I do want to say thank you for your willingness to come 
before the committee and help us as you have done. There were 
other occasions when I was not the Chair, and I appreciate that 
work as well. Let me first begin by introducing our 
distinguished panel.
    Colleen Kelley is the national president of the National 
Treasury Employees Union, the Nation's largest independent 
Federal sector union representing 31 separate Government 
agencies. As the union's top elected official, Ms. Kelley leads 
NTEU's effort to achieve the dignity and respect that Federal 
employees deserve.
    Jacqueline Simon is the public policy director for the 
American Federation of Government Employees [AFGE]. AFGE 
watches over the rights of some 600,000 Federal and D.C. 
Government employees. An economist by training, Ms. Simon has 
worked to protect the interests of Federal employees at AFGE 
for 20 years.
    Greg Junemann is president of the International Federation 
of Professional and Technical Engineers. In 2005, Mr. Junemann 
was elected to the AFL-CIO Executive Council. He serves as co-
chair of two AFL-CIO committees, Organizing and Immigration, 
and also is a member of several AFL-CIO committees including 
Training and Education, International Affairs, Political 
Policy, State and Local Organizations, and Public Affairs.
    To all, welcome. Why don't I give each of you 5 minutes to 
make opening remarks and then we will go forward with 
questioning. President Kelley.

  STATEMENTS OF COLLEEN KELLEY, NATIONAL PRESIDENT, NATIONAL 
   TREASURY EMPLOYEES UNION; JACQUELINE SIMON, PUBLIC POLICY 
  DIRECTOR, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES; AND 
   GREGORY JUNEMANN, PRESIDENT, INTERNATIONAL FEDERATION OF 
              PROFESSIONAL AND TECHNICAL ENGINEERS

                  STATEMENT OF COLLEEN KELLEY

    Ms. Kelley. Thank you very much, Chairman Lynch. It is an 
honor to be here at this hearing and it is very good to hear so 
many agree that these are very exciting times in the Federal 
service and for Federal employees.
    The extent to which our Government will be successful rests 
in large measure on the Federal employees who are charged with 
carrying out the critical missions of their agencies, again, 
something everyone today agrees on. During the last 
administration, the use of outside contractors skyrocketed 
while staffing in many agencies was severely reduced.
    The IRS, for example, saw a 24 percent decrease in staffing 
levels over the past 12 years despite staggering increases in 
work load. The new Congress has stepped up to the plate and 
included additional resources in both the House and the Senate 
passed budget resolutions for fiscal year 2010 to address some 
of the most urgent staffing shortfalls at agencies like the 
IRS, the FDA, and the Social Security Administration.
    NTEU believes that resources can be found to further 
rebuild decimated staffing levels by discontinuing the 
inefficient and ineffective contracting out policies of the 
last administration. A very large number of contracts let by 
the Federal Government in recent years have been plagued by 
cost overruns and inadequate performance. I am very pleased 
that the Obama administration is reviewing agency contracting. 
I am confident that savings can be found by bringing much of 
that work in-house.
    Savings in productivity can also be increased when front 
line employees are asked for their input into agency 
decisionmaking. In October 1993, President Clinton issued an 
Executive order establishing labor-management partnerships in 
the Federal Government. That Executive order was rescinded by 
President Bush soon after he took Office. NTEU believes it is 
time to reinstate those partnerships in the Federal Government 
and to once again tap into the expertise of front line 
employees.
    A tax on collective bargaining by the previous 
administration also unfairly left large groups of dedicated 
employees without basic workplace rights.
    NTEU enthusiastically supports House of Representatives 
1881 to provide collective bargaining rights and Civil Service 
protections to the employees of the Transportation Security 
Administration who have the lowest pay and the highest injury 
rate and the highest attrition rate in the Federal Government. 
I look forward to working with this Congress and the Obama 
administration to secure these rights for TSA.
    These challenging times require that the Federal Government 
is able to attract and retain the best. Many have talked about 
that today. Therefore, the benefits and pay must be 
competitive. FEHBP has good elements to it but it is not 
without serious problems. Despite constant premium increases in 
the last 8 years, the program has seen benefit and coverage 
cutbacks, higher co-payments, and the addition of new plans 
like high deductible heath plans that undermine the integrity 
of the system.
    NTEU supports greater Federal premium contributions by the 
Government and a review to see how costs can be reduced for the 
8 million Federal enrollees. We also support extending the age 
for dependant coverage past age 22 as many States, including 
Massachusetts and Utah, have already done. We support allowing 
domestic partner coverage for Federal employees under FEHPB. We 
are in favor of House of Representatives 626 to provide 
parental paid leave for Federal employees for the birth or 
adoption of a child.
    We also support pay parity. Federal employees are willing 
to do their part but they deserve pay parity with military 
personnel as has been the case for almost two decades. As 
Director Berry noted this morning, civilian Federal Employees 
face a 23 percent pay gap with the private sector. The law that 
was supposed to close that gap, FEPCA, has never been fully 
implemented.
    As agencies look to rebuild their work forces, we should 
strive to make the hiring process more user friendly and 
faster, again, something everyone agreed on today. But we need 
to fix only what is broken while maintaining the Federal merit 
principles. The Federal Career Intern Program is one example of 
a hiring alternative that is failing and needs to be ended. 
This has nothing to do with the intern programs that have been 
talked about earlier. This is actually a hiring mechanism being 
used inappropriately by too many agencies. NTEU stands ready to 
work with this committee, with Congress, and with the 
administration to improve the hiring process.
    Finally, let me salute this subcommittee for its role in 
the House passage of House of Representative 1804 and House of 
Representatives 1256. The package allows counting unused sick 
leave toward the FERS retirement calculation and correcting the 
CSRS problem for part time service. It also makes important 
Thrift Savings improvements including automatic enrollment and 
a Roth contribution fund for those who choose it. NTEU strongly 
supports this bill and will work to ensure its enactment.
    The challenges facing our Government are great and 
historically important. But the Federal work force is a strong, 
resilient, and capable one that wants to fully participate 
again as a partner in solving the many challenges ahead for our 
country. NTEU looks forward to working with all of you to make 
this happen. I thank you very much for the opportunity to be 
here today. I will answer any questions you have. Thank you.
    [The prepared statement of Ms. Kelley follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Thank you.
    Ms. Simon for 5 minutes, please?

                 STATEMENT OF JACQUELINE SIMON

    Ms. Simon. Mr. Chairman, thank you for the opportunity to 
testify today. My statement focuses on Federal hiring.
    It is important to remember that despite notions to the 
contrary, the private sector's hiring methods are neither 
instantaneous nor trouble free. In addition, while the Federal 
Government has some problems in hiring, it is not the bumbling 
caricature it is so often portrayed to be. Moreover, the 
problems with Federal hiring are not caused by adherence to the 
merit system principles or Veterans Preference.
    Hiring the next generation of Federal employees is a 
serious undertaking. Those charged with this task have a legal 
and social responsibility to conduct hiring in the most open 
and fair manner possible. The plain fact is that openness and 
fairness take time.
    Federal agencies must honor Veterans Preference. Internal 
candidates who are selected into career ladder positions must 
be given the opportunities they have been promised. Background 
checks and security clearances have to be conducted. Education 
and prior employment must be verified. Working for a Federal 
agency is not the same as working for a private firm and it 
takes time to make sure an applicant meets the standards and 
requirements our society expects the Federal Government to 
uphold.
    But there is no doubt that the application process could be 
streamlined without sacrificing these high standards. Many 
perspective employees point to the lengthy sections of 
applications that require them to describe in great detail 
their knowledge, skills, and abilities [KSAs]. We have also 
seen the demoralizing effect on current employees who must 
produce these lengthy KSAs when they are applying for internal 
promotions. Elimination of the KSAs is worthy of consideration 
but at a minimum, we think that only those who pass an initial 
level of scrutiny should be required to fill out KSAs.
    Another problem with Federal hiring is that even when 
applicants meet the qualifications that are required and posted 
on the vacancy announcement, it is all too common for agencies 
to conceal additional accreditation requirements which are even 
more critical to the position. These hidden accreditation 
requirements prevent applicants from qualifying for further 
consideration for a job, which is particularly infuriating when 
they learn about them after the fact and after they have spent 
hours filling out KSAs.
    While it is critical that OPM focus extensively on 
correcting the problems with Federal hiring, there are many 
proposals that should be off the table. The previous 
administration had three answers to the challenge of Federal 
hiring: rehire annuitants without competition, hire directly 
without competition, and hire contractors without competition. 
In the meantime, they were consolidating and privatizing human 
resource functions across the Government, undermining the 
ability of agencies to utilize the normal competitive merit 
system hiring processes with any speed or efficiency.
    One of the many complaints we have heard is that Federal 
hiring is too slow. One important explanation for the slowness, 
apart from the requirement for being thorough that I described 
above, is that between the indiscriminate downsizing of the 
1990's and the privatization by the Bush administration, agency 
personnel offices have been decimated. There are simply too few 
personnel to handle the duties related to hiring in an 
expeditious way. The single most important and effective step 
in speeding up hiring would be to reestablish onsite personnel 
offices adequately staffed with Federal employees.
    Although much emphasis is placed upon external candidates 
for Federal jobs, the retention of current employees should 
also be a priority because they often make the best candidates 
for Federal job openings. We hear from our members a recurring 
theme: Agencies prefer to bring in outside candidates at a 
grade just one level higher than the top grade for the 
incumbent work force.
    For example, at an agency that has computer programmers 
ranging from Grades 5 through 12, most of whom have worked in 
these positions for years, the agency will bring in a new 
programmer at Grade 13 because it is easier to fill a Grade 13 
than to backfill a Grade 5. The result is that opportunities 
for career development for internal candidates are cutoff. They 
are left to train the newcomers who now hold the position to 
which they had aspired. This practice has a devastating impact 
on morale. The Government should instead create and maintain 
meaningful merit promotion programs for the employees it has 
already invested in.
    In summary, AFGE supports four main policies that would 
greatly facilitate and expedite the recruitment and retention 
of the next generation of Federal employees. No. 1 is to 
restore through insourcing adequate numbers of Federal human 
resources professionals to provide the support necessary for a 
hiring process that adheres to Veterans Preference and the 
merit system principles.
    No. 2 is to reform and streamline Federal job applications 
and processes with particular focus on alternatives to the 
controversial knowledge, skills, and abilities portion of the 
process. No. 3 is to train agencies to focus as much attention 
on hiring from within their current ranks as is placed on 
attracting external candidates. No. 4 is to take steps to close 
the pay gap between Federal and nonFederal pay for both General 
Schedule and Federal Wage system employees.
    This concludes my statement. I will be happy to answer any 
questions.
    [The prepared statement of Mr. Gage follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Thank you. President Junemann, please?

                 STATEMENT OF GREGORY JUNEMANN

    Mr. Junemann. Thank you, Mr. Chairman. I would like to 
thank you, Chairman Lynch and the members of the subcommittee 
for addressing this very important topic.
    Since my preamble has been, I think, covered quite well and 
adequately, I will skip right to the meat of my remarks. When I 
found I was scheduled to testify here today, we reached out to 
all of our Federal area locals and asked for their input on 
what they thought this committee should address. So I will get 
right to that.
    Repairing the damage of the Civil Service work force and 
preserving it into the 21st century will not happen without 
significant effort across the legislative and executive 
branches of Government. We look forward to seeing this 
subcommittee play a major role in that effort. On behalf of the 
Federal workers that IFPTE represents, we respectfully submit 
the following proposals for your consideration.
    This committee should work to repeal finally and fully the 
disruptive and punitive National Security Personnel System. My 
entire union sees this bill as nothing more than an assault on 
the dedicated civilian defense work force.
    Second, scrutinize and reform the contracting out of 
Federal work. While IFPTE, which in addition to representing 
tens of thousands of Federal workers also represents tens of 
thousands of workers in the private sector, it is not opposed 
to privatization when it makes sense and is done in a fair, 
proper, and prudent manner that benefits the Nation. Current 
Federal contracting out policies are heavily skewed in favor of 
privatization and need to be overhauled. Re-Federalization 
should be considered for those Bush administration outsourcing 
efforts that have failed to meet promised savings and/or 
quality metrics.
    Third, mandate increased management training. IFPTE 
supports the passage of the Federal Supervisor Training Act of 
2009 that has been sponsored by Senator Akaka.
    Fourth, reinstate the Federal management partnership. I 
applaud the remarks earlier from Director Berry. IFPTE sees 
tremendous value in partnerships and urges their rebirth with 
the inclusion of language that establishes method, means, and 
technology as bargaining obligations.
    Fifth, extend Civil Service protections within the 
executive branch to the legislative branch. In other words, 
Congress has to remember its own employees. IFPTE asks the 
subcommittee and the full committee to work with the House 
Administration Committee to ensure that workers of the 
legislative branch enjoy the same benefits as their brethren 
within the executive branch.
    Sixth, act to preserve America's leadership in aerospace, 
science, and technology. This is done in two ways. First, call 
for appropriations that increase in-house research and 
development funding for Federal research institutions including 
funding for strategic hiring. Second, adopt legislation capping 
the use of term positions and prohibiting the use of accounting 
methods that seek full cost recovery of Civil Service salary.
    Finally, take additional actions, as I am outlining here, 
which include reducing the increasing burden of health premiums 
on Federal workers. We applaud the House for giving Federal 
employees under FERS the ability to use their unused sick leave 
and providing the same employee benefits afforded to opposite 
sex married Federal workers to domestic partners and to same 
sex married couples. Repeal the Windfall Elimination Provision 
in Government pension offsets. Increase and enhance pension and 
annual leave benefits for administrative law judges. Finally, 
raise the cap on GS-15 salaries.
    We would like to thank you again for allowing us to 
participate and testify before the committee today. I would 
answer any questions you might have.
    [The prepared statement of Mr. Junemann follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. Thank you very much. I appreciate your patience 
in waiting for others to testify. I would like to get right to 
a couple of issues that I have been thinking about for some 
time.
    I know that, President Kelley, in 1998 Congress authorized 
various personnel flexibilities related to staffing, 
performance, and pay for IRS employees. I know you represent 
those folks. How have the flexibilities impacted the situation 
at the IRS? What have been the outcomes? Have you seen it 
abused or under-used? What has been the actual experience on 
the ground at the IRS? Would you recommend any regulatory 
modifications to that whole exercise?
    Ms. Kelley. Actually, at the IRS they have used very few of 
the flexibilities. It usually comes down to the fact that they 
decide not to allocate the funding for it. When you look at 
specific issues such as recruiting and retention bonuses, they 
have used those for managers or for SES employees but not for 
front line employees. Student loan repayments, we have been 
working hard to try to have them acknowledge that would help in 
the recruiting and retention and they just have not either had 
the money or been willing to invest the money in that for the 
work force.
    So as with most agencies, they have a lot of flexibilities 
that they already have the authority to use but they are not 
using them. That was always one of NTEU's frustrations when 
agencies would come forward and ask for more flexibilities as 
if they don't already have enough. They have plenty and they 
just don't use them.
    Mr. Lynch. Ms. Simon, I know that we have a lot of folks 
coming back from Afghanistan and Iraq after multiple tours. We 
have a well intended Veterans Benefit and Veterans Preference 
mandate out there. I have been to Iraq I think 11 or 12 times 
now and Afghanistan probably half a dozen times and I am, 
without exception, totally impressed at the young people and 
some of the not so young people that we have in uniform doing a 
great job for us. These folks are very well trained, very well 
educated, highly intelligent, and highly motivated. How do we 
get more of them to apply and succeed in coming into the 
Federal Government and helping us with the civilian side of our 
Government? How do we do that? I sense that there is some 
obstruction there as well.
    Ms. Simon. Well, it is interesting to hear you say that. We 
estimate at AFGE that something close to half of our membership 
at any given time are veterans. We are not a veterans service 
organization but we are very, very strong advocates of 
retaining Veterans Preference in hiring. I don't think it is 
too much to say that the majority of proposals that have been 
put before us--not just this year but certainly in the last 8 
years--were thinly veiled attempts to evade Veterans 
Preference, particularly direct hiring.
    People will whisper, they will give lip service to the 
importance of Veterans Preference but then whisper later, I 
can't hire anybody because I can only hire veterans. I think 
that the attitude that you just expressed isn't as widespread 
as it ought to be in the agencies. We certainly know that 
veterans make excellent Federal employees.
    We have all made vague reference at some point today to, 
and I mean this panel, to the devastating impact the last 8 
years have had on the Federal work force in terms of morale and 
even reputation. We had an administration that was at war with 
its own work force. Retiring Federal employees were replaced as 
often as possible with contractors.
    So I think that word is getting out that the Federal 
Government is back in the business of hiring and the hostility 
has ceased. Federal agencies are once again welcoming people to 
apply with the expectation that they will be hired and treated 
fairly. So we are really just getting started here in trying to 
undo some of the damage that has been done in the last 8 years.
    It was delightful listening to the previous panels and 
talking about the Federal work force in such a positive way. I 
think that, combined with the unfortunate fact that the private 
sector is reeling, the Federal Government hiring should be in a 
pretty good position.
    Mr. Lynch. Are there refinements or modifications in the 
current Veterans Preference model that might make it easier or 
make us more successful in attracting some of our servicemen 
and women into coming back?
    Ms. Simon. The thing that we hear over and over again, 
which you have probably heard over and over again, is the 
difficulty people have in a lot of occupations filling out 
these lengthy KSA forms. There are a lot of Federal jobs that 
really don't require the ability to write these long essays. 
That is why we are very supportive of efforts to try to 
streamline this application process and get away from the 
emphasis on written KSAs.
    Mr. Lynch. I heard very earlier today Director Berry who 
said, basically, that we have gone to a system where potential 
candidates for Federal employment have to go to an agency to 
help them reinterpret their work history in a way that applies 
to the Federal hiring process data, the KSA filings and all of 
that. You would think that a person of competent intelligence 
could fill out a form to describe their own work history in an 
effort to get a Federal job, but that is clearly not the case. 
I think it is illustrative of the problem that we are facing.
    Ms. Simon. When he was talking about that, it reminded me 
of something that you will probably hear a lot more about, 
which is the sort of biggest complaint that our members at the 
Social Security Administration have. In the last 8 years, their 
jobs went from helping members of the public apply for the 
benefits to which they were entitled to being sort of gate 
keepers of those benefits.
    In response, a sort of a cottage industry of firms were 
created to help people apply for Social Security benefits. The 
fact is that there are so few personnel officers who could 
actually pick up the phone and answer an applicant's question 
about how do I actually do this. There is no reason that we 
can't have HR staff who could actually help applicants through 
the process.
    If you see our written statement, the Bush administration 
had this Lines of Business Initiative with HR that virtually 
required every Federal agency to outsource to a so-called 
center of excellence for HR functions. As a result, there is 
really nobody left, in agencies. Certainly there is nobody who 
can help an applicant fill out the form.
    Mr. Lynch. I would be remiss if I did not say thank you to 
each of you. I know that AFGE and NTEU and your own group, 
President Junemann, have been very aggressive in getting 
Veterans into Federal employment. We appreciate that. At AFGE, 
I think the percentage was 40 percent or something in that 
area. That is extremely high. That is a great tribute to your 
organization and your willingness to reach out and make sure 
that these folks who have put on the uniform of this country 
have an opportunity to come home and go to work in a decent 
job.
    Ms. Simon. I just have thought of one more thing. Some of 
these proposals for direct hiring or expedited hiring have 
wanted to try to make various other forms of experience 
equivalent to Veterans Preference in the hiring process, up to 
and including having spent 4 years on a college campus getting 
a degree.
    I don't know if you have seen those proposals but we have 
reacted very negatively to any effort to say, OK, well 4 years 
in college earning a bachelor's degree is equivalent to having 
done a tour of duty in Iraq or Afghanistan. Those kinds of 
proposals have been offered with a straight face. We just 
really have a very negative reaction to trying to equate any 
kind of educational experience to military service.
    Mr. Lynch. Yes. I would have a similar reaction to any 
attempt such as that, sure.
    Ms. Kelley. If I could just add, Chairman Lynch, about this 
whole issue of Veterans Preference in the hiring process? One 
of the things that I am hoping that Director Berry will look at 
is the potpourri list of hiring processes that agencies are 
using.
    One of the ones that we specifically cited in NTEU's 
testimony and I mentioned briefly is called the Federal Career 
Intern Program. It has nothing to do with an intern program. It 
was legislation that allowed agencies to use this hiring 
process literally for interns, for short term assignments, to 
kind of get to see their skills and maybe see where they fit 
best in the Federal Government. Well, that FCIP program does 
not take into account Veterans Preference. It totally ignores 
Veterans Preference. It does not even mandate that it be 
considered.
    Today, Customs and Border Protection is using it to hire 
every front line CBP Officer and they have 22,000 of them in 
the agency. So they are using it to hire every CBPO. The IRS is 
using it to hire every revenue agent and revenue officer. The 
FDIC is using it to hire examiners. So the program is being 
totally misused.
    NTEU's lawsuit asserts that it is not a merit principle 
hiring system specifically because of totally ignoring of the 
Veterans Preference issue. So whether this gets shut down by 
our lawsuit or by Director Berry with the new OPM taking a new 
look at this, I hope it will be shut down soon. Tens of 
thousands of employees are being hired under this program every 
year and totally misusing what the legislative intent of it 
was.
    Mr. Junemann. Mr. Chairman, could I----
    Mr. Lynch. Absolutely. Mr. Junemann, I have some questions 
for you as well but you can jump in here.
    I am surprised at that because you would think that for 
Customs and Border Patrol, with all the hiring that is going on 
because of the situation on the Mexican border and other areas, 
who better to hire than folks coming back with military 
backgrounds, our veterans. That is a perfect applicant pool. I 
would think they would have all the relevant skills and 
disciplines that would pertain to that job.
    If you wanted to followup on that Mr. Junemann? I also have 
some questions for you but go ahead.
    Mr. Junemann. I need to say something on this because I 
have a son who is a three time veteran of Iraq. He is, I dare 
say, an ex-Marine. He would shoot me; he is a former Marine. 
Anyway, he is a three time veteran of the Iraq war. He also did 
a brief stint in Afghanistan. He told me--and again maybe this 
is anecdotal, but he said this was not only for himself but he 
found this among his fellow Marines--there is very little, let 
us call it marketing, being done by the Federal Government 
while people are in the military. So if you are asking how do 
we get them in, get them before they leave would be my answer.
    As a matter of fact, what he says is there is very little 
attention paid to soldiers who are trying to get out because 
you are sort of competing with yourself in that the military is 
so understaffed. It would be difficult for the same Federal 
Government to say please stay in, please re-up, give us 4 more 
years and at the same time say, hey, there are career 
opportunities for you when you leave on the civilian side.
    So I think what is happening is before they are ever 
leaving, their commanders are sort of hanging onto their ankles 
with both hands asking them not to leave. When they finally are 
convinced that they are going to leave, then it is just a very 
short, brief and not very effective mechanism toward post-
military careers.
    I think what needs to be done is there needs to be 
marketing. If we really want these people, don't wait until 
they are done and then say, oh, we have Veterans Preference now 
that you are unemployed. What I think needs to be done is as 
they are nearing the end, put a career in Federal Government 
service there and say, here is another avenue you might want to 
go into. We will embrace you in that.
    Mr. Lynch. Right. I think that is a great point and one I 
think is lost on most people. There is a concerted effort, and 
has been since 2003, to get our young and experienced men and 
women in uniform to re-up. And as you point out, if you are 
trying to do that, get them to reenlist, it would be counter-
intuitive for you to also provide information and encouragement 
on taking another job in the Federal Government that would take 
those folks out of uniform. So there is a conflict there that 
we have to figure out.
    Interestingly I have spent enough time in Iraq and 
Afghanistan to know that when these soldiers are getting toward 
the end of their tour, they are online quite a bit. I know the 
ones in my district contact me about their prospects of going 
to work when they get home. They are nervous about that. There 
is a certain anxiety. They have been doing that for such a long 
time in uniform and now they are stepping out. It is a big move 
for them.
    It just seems to me there ought to be an outreach on our 
part given the need that we now see in the Federal Government 
for new employees in various areas of activity and 
responsibility. We should be reaching out to these folks 
affirmatively ourselves rather than just asking them to kind of 
figure their way into Federal employment. So I think it is a 
great point you raise and one that I will certainly discuss 
with Director Berry.
    One of the questions I had for you, President Junemann, is 
that a lot of your folks are technically oriented. You have 
engineers and scientists that work for you. It must present a 
unique set of problems for you in terms of the competition from 
private industry for those who have an acumen in the sciences 
and engineering. How has it worked out? How are those problems 
that we have talked about earlier today--the hiring process, 
both initial hires and those who might be needed in a lateral 
hiring mode affected the folks that you represent?
    Mr. Junemann. Well, go back a little bit to 2002 after 
September 11th. A lot of our members, especially within the 
private sector, a lot of my members are involved in weapons 
systems as well as aircraft and aviation, at Boeing, General 
Electric, Westinghouse, and Lockheed Martin, a lot of them are 
experiencing a reduction in force. A lot of them are going 
through layoffs. So I actually contacted OPM and talked to Kay 
Coles James and said, OK look, if after September 11th the old 
rules don't apply, let us not apply them.
    I mean, let's look at this thing a little differently. If 
we have a lot of these employees who have already passed a lot 
of the security clearances working in the private sector, and 
if you need employees and are still hiring, let us go where the 
bass are biting. Let us do hiring hauls where these people are 
suddenly finding themselves close to being unemployed. It 
sounded really good but we still ran into that same 8, 9, or 10 
months that it takes the Federal Government to hire an 
engineer. Even when they had security clearances, they still 
had to go through the same thing again.
    There is not really great competition among my members that 
somebody wants to go, for instance, from Puget Sound Naval 
Shipyard to go and work for Boeing because the people at Puget 
Sound really like what they are doing. They are committed to 
working and making their little piece of the Navy that much 
more efficient and effective. It works similarly with NASA.
    More of the problem, comes into, as was mentioned earlier, 
setting forth career paths. Because of all of the problems that 
we have talked about here, including the non-pay for 
performance and non-recognition for performance, they don't see 
a career path in the Federal sector that they should. That is 
what I have seen; that is what I have heard back from them.
    Mr. Lynch. Let me ask you, President Kelley. We had a 
similar situation in Andover, north of my district in 
Massachusetts. I have I think 1,700 accountants, auditors, and 
lawyers, folks with heavy backgrounds in financial services. 
Then we have the oversight necessity of this TARP program, the 
Troubled Asset Relief Program, and then also TALF, the Term 
Asset-Backed Loan Facility. There has been a tremendous need 
for hiring those very people. They are laying off 1,700 IRS 
employees with the requisite skills in Andover and they are 
hiring a few thousand to do that type of work within these new 
Government programs.
    But I am having a hard time getting people to talk to each 
other. There are folks over here you are laying off and 
meanwhile you are hiring new people and training them at 
tremendous cost. Not to mention that a lot of the folks at the 
IRS facility in Andover are already cleared for security 
clearances and have already been doing this work. We have 
vetted them. Some of them are 20 year employees. Now we are 
spending a whole lot of money vetting and doing clearances on 
new hires, worried about whether or not they can be trusted 
with the responsibilities that they are being given.
    How do we get folks to talk to each other? It would seem 
like a simple thing like with the Puget Sound example. I 
actually had a unit from the Puget Sound in my district as well 
doing some engineering work. So I have seen all this happen. 
How do we get around that? How do we force people to talk to 
each other?
    Ms. Kelley. Well, I have been trying to get information 
that you might have about what the qualifications are for these 
TARP jobs to do exactly what you are suggesting, to match them 
up with Andover. So maybe you and I could talk and also get 
Director Berry in this conversation. Because you are absolutely 
right. Those employees on September 30th up at Andover at the 
service center will be no longer Federal employees. And there 
is this work that needs to be done.
    But what you described in this situation, I have seen as an 
ongoing disconnect between agencies. This is one of the things 
I am hoping that the new OPM will be able to change about the 
way business has been done.
    One of the reasons I think agencies don't follow OPM's 
direction, or they see them as recommendations rather than 
directives, are because they don't see anything coming from OPM 
that they think will help them. I was thinking about what do 
agencies tell me that they do with or to the OPM. They go to 
OPM to ask for permission for something they need to ask 
permission for. They go to OPM to ask for a waiver to not have 
to do something that they are supposed to be doing. Other than 
that, that is pretty much what they go to OPM for. I suspect 
that is because they don't want OPM in their business unless 
they think they can help in some way.
    I am hoping and I do believe that with Director Berry there 
we are going to see a lot of changes in that arena. If they can 
offer something that the agencies say, hey, that would really 
be helpful instead of me reinventing the wheel and having 33 
hiring practices in 33 different agencies, if OPM can really 
pull something together that would be seen as helpful to the 
agencies, then I think things will change.
    I also think and believe that OPM will, when they look at 
this hiring process or whatever it is that the agencies can 
benefit from, be in that conversation.
    I have already had that conversation with Director Berry. I 
think the unions have an awful lot to offer on all of these 
issues. Will we agree on everything? Of course not. But let us 
get all the ideas on the table, get the best ones, align 
ourselves behind them, and get in there and help make some 
change happen. I think we have that potential.
    Mr. Lynch. There are a couple of schools of thought on this 
whole idea about reform. I know there are gaps and inequities, 
inconsistencies in the current system right now that drive you 
folks nuts in your jobs every day trying to get fairness for 
the people you represent. I also know there are some structural 
changes that the management end of this operation would like to 
get.
    I guess there are two schools of thought. One is that you 
try to get some grand bargain, if you want to call it that, an 
omnibus type of piece of legislation that tries to cure all the 
ills that we see in the current system and adopt rather 
progressive reforms at the same time. Then we move forward 
together. There is another school of thought, perhaps more 
pragmatic and born of experience, that since it is so hard to 
get change in this system, if you wait to try to get that type 
of grand bargain, you will never get anything done. So you 
might was well cherry pick the things that you can get done.
    Do any of you have any ideas about what might be the better 
approach here given your experience?
    Mr. Junemann. I mentioned the National Security Personnel 
System really needs to be scrapped. But there was something 
that was very possible that could have happened out of that. 
When that was passed by Congress, the unions that were affected 
got together and 36 unions formed a coalition, the United 
Defense Worker Coalition. Some were in the AFL-CIO, some were 
changed with the winds, some were never affiliated with 
anybody, but it was the largest coalition of unions in the 
history of the American labor movement.
    We sat side by side and management came in because we were 
supposed to go through this whole process of identifying 
problems and resolving them. The opportunity was glorious. It 
really was. The problem was that the management representatives 
that came in really weren't serious about it. They had an 
initial proposal that they wanted to put forward. Congress said 
no, you need to meet and confer with the unions so they went 
through that whole thing. It took us about 9 months, maybe a 
year's worth of meetings. When we were all done, they said, OK, 
here is our final proposal. It was a comma changed to a 
semicolon, pretty much the same as what they initially wanted 
to do.
    We really missed a golden opportunity there to say, OK, 
here are some problems inherent in our system. I mean, just do 
some interest-based bargaining. It would have taken a longer 
amount of time but. When they came to us and said here is what 
we see as a problem, for instance, with FLRA we said, well, we 
have that problem, too. Things take too long; how do we go 
about fixing it? I think we could do that again.
    But if it is going to be simply ramming through who has the 
power this week and that is going to end up being the solution, 
we are not going to get there. There were a lot of people--at 
least I can tell you with all the unions--and I didn't agree 
with everything that they had to say and they all didn't agree 
with me but I think we could have ended up somewhere. When I 
talk to some of the career people in management, I think that 
they felt the same thing, that if we can get sort of the 
temporary elected heads out of here, we could really probably 
make something that works a lot better for the Federal work 
force and for the American people.
    So I think that could be done. I think the first scenario 
could be done. It will take us a while but I think if we are 
committed to do it, we can make a better system.
    Mr. Lynch. OK, let us give it a shot. Ms. Simon.
    Ms. Simon. This is not the answer anybody wants to hear, 
but as my colleagues have mentioned, Federal agencies have a 
lot of authorities and flexibilities. You hear at all these 
hearings about, oh, we need to be able to do this, we need to 
be able to do that. There is a list as long as your arm of 
flexibilities that are authorized in law but are never funded. 
Likewise, we talk about the fact that there is still a pay gap 
of around 25 percent nationwide on average between Federal and 
non-Federal pay.
    The answer to all of the problems that we talk about here 
is more funding for the flexibilities and the authorizations 
and the pay system and the performance system and the 
opportunity to reward high performance. All of those things 
currently exist in the form of authorities, but they are not 
funded so they are not utilized. So, obviously the answer to 
the pay gap is funding our market comparability pay system. The 
answer to hiring enough people to do all the kinds of things 
that we need to have a more efficient and effective Government 
is to fund it. That is the grand bargain.
    Ms. Kelley. If I could just add, Chairman Lynch, I think we 
all know the stars are aligned a little different today than 
they were 6 months ago. Just when I think about this hearing, 
for the last 8 years, the testimony from the first panel at any 
hearing would have been totally opposite the panel that we are 
sitting on today. We knew that when we came in. We knew what to 
expect and we knew what we would hear. There were no stars 
aligned. There was no support for the Federal work force.
    That is different today so I think it is worth a shot. I 
think, is it a guaranteed win? No, but the tone from the White 
House, the tone from all of the political appointees, the heads 
of the agencies, the message from Congress from the House and 
the Senate, I mean, we are in a very different place. So I 
think we need to acknowledge what didn't work before. But I do 
think we have opportunities now that we didn't have before. 
NTEU is sure willing to roll up our sleeves and give it a shot.
    Mr. Lynch. OK, that is good to hear. I am somewhat of a 
pessimist but I could be convinced. I have to say, you folks 
have been banging heads against the wall for a lot longer than 
I have. And if you think there is a chance of this happening, 
then I am with it. I am fully committed. I just wanted to make 
sure we were not on a fool's errand in terms of trying to get 
this thing to work. If you think that there is an opportunity 
to make this work, then I certainly support that.
    I know that the Director, Mr. Berry, is the one who has 
basically put it out there. I don't think he is talking about 
funding flexibilities within the current system. I believe what 
he was actually articulating is he wants to change the system 
itself, something more fundamental. I know that he wants you at 
the table to get your thoughts because of your experience in 
this.
    Having seen how it has changed from administration to 
administration, it is dyslexic sometimes. One group comes in 
and they have this approach and then the next group comes in 
and they have a totally different approach. That can be 
maddening, I am sure. But we have to deal with the here and 
now. We have basically 4 years ahead of us where we can get a 
consistent policy out of the White House and out of the 
executive branch. So we can work with that.
    Ms. Kelley. Well, there are a lot of moving parts to this. 
I mean, if we made a list of everything we have all identified 
today that we would like to change going forward, maybe the 
place to start is with the hiring process. Start the 
conversation with everybody in the conversation who should be 
there and let us see what we can do. That is an immanent crisis 
we have all identified.
    Mr. Lynch. That would seem like a logical place to start. 
It would certainly impact what we talked about with whether it 
is 400,000 or 500,000 employees coming to the system, that 
would affect that next wave. It would seem like a logical place 
to start.
    In closing, I just want to say that I have given the 
previous panels an opportunity to amplify anything that they 
think is important for the committee to hear and to go on the 
record. So I would like to give you each an opportunity if 
there are things. You have articulated yourselves very well, by 
the way. But if there are things that I have missed or that you 
have not put forward in your testimony yet, I just would like 
to give you an opportunity. President Kelley.
    Ms. Kelley. Actually, the things I was going to say in 
response to that question that I knew you would ask us, I have 
already just put out there. Thank you.
    Mr. Lynch. Thank you. Ms. Simon.
    Ms. Simon. Likewise, I don't want to stand between anybody 
else and their lunch.
    Mr. Lynch. God bless you.
    Ms. Simon. So I think we had ample opportunity. Thank you.
    Mr. Lynch. President Junemann.
    Mr. Junemann. I am no fool. I think it has all been said 
and it has been said quite well. Thank you so much for the 
opportunity.
    Mr. Lynch. Thank you for your willingness to help the 
committee with its work. Thank you. Have a good day, now.
    [Whereupon, at 1:40 p.m., the subcommittee was adjourned.]
    [Additional information for the hearing record follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
